                The Internal Revenue Service’s Individual
                 Taxpayer Identification Number Creates
              Significant Challenges for Tax Administration

                                   January 2004

                       Reference Number: 2004-30-023




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.



Redaction Legend:
2d = Law Enforcement Technique(s)
2e = Law Enforcement Procedure(s)
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       January 8, 2004


       MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                      ENFORCEMENT


       FROM:                          Gordon C. Milbourn III
                                      Acting Deputy Inspector General for Audit

       SUBJECT:                       Final Audit Report - The Internal Revenue Service’s Individual
                                      Taxpayer Identification Number Creates Significant Challenges
                                      for Tax Administration (Audit # 200230050)


       This report presents the results of our analysis of United States (U.S.) Individual Income
       Tax Returns (Form 1040) filed with an Internal Revenue Service (IRS) Individual
       Taxpayer Identification Number (ITIN) by resident aliens 1 for Tax Year (TY) 2001 and,
       where applicable, TY 2000.2 This evaluation included identifying attributes of these
       Forms 1040, such as income, deductions, credits and refunds, and the related tax
       administration issues that affect compliance with tax laws and regulations.
       Forms 1040 filed with ITINs represent significant challenges for tax administration and
       affect other areas of Federal Government concern and tax policy. An analysis of the tax
       return attributes for TY 2001 resident aliens who were not authorized to work in the U.S.
       showed that approximately 530,000 Forms 1040 were filed with ITINs as the primary
       number.




       1
         26 U.S.C. § 7701 (2003) defines a resident alien as a resident of the U.S. for any calendar year if that individual
       was lawfully admitted for permanent residence. A resident alien is also a foreign person in the U.S. who meets the
       “substantial presence” test, which is based on the number of days that person resides in the U.S.
       2
         TYs 2001 and 2000 were the most recent years available at the time of this review. Our data are based on the
       primary filer’s identification number as an ITIN.
                                                           2

These returns reported adjusted gross income (AGI) 3 of $10.7 billion, which was
reduced by $7.5 billion for the standard and itemized deductions and exemptions. The
amount of taxes due was $495 million.
The taxes due were reduced by tax credits and payments, leaving a reported total tax
liability of $184 million. This tax liability represented 1.7 percent of the $10.7 billion
in AGI. After the tax liability was computed, the claimed amount of refunds totaled
$522 million.
In all likelihood, the number of Forms 1040 with ITINs will increase. The approximately
530,000 returns is a 99 percent increase in the number of Form 1040 returns filed with
an ITIN over a 3-year period. Moreover, the number of ITINs issued to resident aliens,
their spouses, and dependents increased from approximately 693,000 in Calendar
Year (CY) 2001 to 925,000 in CY 2002.
Forms 1040 filed with an ITIN represent two major challenges for tax administration.
First, unauthorized resident aliens 4 with questionable identification benefit 2d, 2e---------
2d, 2e---------------------------------------------------------------------- In TY 2000, 353,000 tax
returns included an estimated 309,000- paper filed returns with 2 different identification
numbers: an ITIN on the Form 1040 and a Social Security Number (SSN) on 1 or more
of the attached Wage and Tax Statements (Form W-2). 2d, 2e----------------------------
-----------------------------------------------------------------------------------------------------------
2d, 2e--- These returns raise concerns about identity theft, 6 perjury, 7 and fraud.8
Second, unauthorized resident aliens benefit 2d, 2e----------------------------------------
2d, 2e-----------------------------------------------------------------------------------------For TY 2000,
we estimated that 82,000 unauthorized resident aliens (1 in 4 return filers) did not report
income from wages and nonemployee compensation of $324 million,9 an average of
almost $4,000 per return.
Other Federal Government agencies and tax policy issues also are affected b y ITIN
usage because unauthorized resident aliens benefit from the tax law10 that generally
prohibits disclosing tax return information. First, the Illegal Immigration Reform and
Immigrant Responsibility Act of 1996 provided that information concerning immigration




3
  26 U.S.C. § 62 (2003) provides that AGI is income from all taxable sources reduced by certain deductions, such as
business expenses, retirement savings, and alimony payments.
4
  See Appendix VII for an explanation of the term unauthorized resident alien.
5
  The margin of error for this figure and all subsequent figures, except electronically filed returns, is in Appendix V.
6
  Identity Theft and Assumption Deterrence Act of 1998, Pub. L. No. 105-318, 112 Stat. 3007 (1998).
7
  26 U.S.C. § 6065 (2003).
8
  26 U.S.C. § 7206 (2003).
9
  Projection based on a statistically valid sample of TY 2000 Forms 1040 with an ITIN for resident aliens claiming
wages and nonemployee compensation and comparing this amount to the IRS Information Returns Program (IRP)
files. The IRP processes information returns submitted either on magnetic media or electronically from businesses;
financial institutions; and Federal, state, and local governments.
10
   26 U.S.C. § 6103 (2003).
                                                        3

status should be reported to the Bureau of Immigration and Customs Enforcement
(BICE). 11 In our opinion, the IRS is able to identify some unauthorized resident aliens by
using ITIN records. However, the tax law generally prohibits the IRS from sharing this
tax return information with other Federal Government agencies. Thus, there is a conflict
between the tax law and immigration law.
The second area of Federal Government concern is identity theft through misuse of the
SSN. Federal Government agencies have reported that hundreds of thousands of
unauthorized resident aliens have used fraudulent documents to obtain employment.
We found unauthorized resident aliens had used approximately 265,000 SSNs 12 that the
Social Security Administration (SSA) had assigned to other individuals. Under current
law, the IRS is prohibited from sharing this information with the SSA.
From a tax policy perspective, unauthorized resident aliens benefit from the tax law
since they are treated virtually the same as U.S. citizens and lawful resident aliens. An
unauthorized resident alien is entitled to the same deductions and credits, except for the
Earned Income Tax Credit (EITC). Therefore, unauthorized resident aliens are eligible
for the Additional Child Tax Credit (ACTC), which is one of only two major credits that
can result in a Federal Government payment above the tax liability. In TY 2001,
$160.5 million was given to approximately 203,000 unauthorized resident aliens, with
about 190,000 of these filers having no tax liability and receiving $151 million.
Like the ACTC, the EITC was available to unauthorized resident aliens when it became
law in 1975. In 1996, the law was changed in part to deny the EITC to unauthorized
workers. A legislative purpose of the ACTC is similar to the purpose of the EITC. Prior
to the EITC law change, the General Accounting Office reported that awarding the EITC
to illegal aliens was at cross-purposes with Federal Government policies that prohibit
illegal aliens from working in the U.S. Similar to the purpose of the EITC, the Senate
stated that tax law changes to the Child Tax Credit (CTC) and ACTC were intended for
“low income working families to promote work.”13
Furthermore, while unauthorized resident aliens are treated virtually the same as U.S.
citizens and legal resident aliens, they are not taxed like aliens who do not reside in the
U.S. but have U.S. source income. If the unauthorized resident aliens were taxed the
same as nonresident aliens, they could not take the standard deduction. Unauthorized
resident aliens claimed the standard deduction on 92.3 percent of the returns filed,
reducing their AGI by $3.2 billion. Also, if unauthorized resident aliens were taxed the
same as nonresident aliens, they could not claim the lower tax rate associated with the


11
   Pub. L. No. 104-208, 110 Stat. 3009 (1996). This law refers to the U.S. Immigration and Naturalization Service
(INS). The Department of Homeland Security’s BICE assumed the INS’ enforcement responsibilities 2003. This
Bureau is now known as the U.S. Immigration and Customs Enforcement.
12
   Projection based on a statistically valid sample of paper filed TY 2000 Forms 1040 filed with an ITIN as the
primary number for resident aliens with Forms W-2 attached, and comparing the SSN on the Form W-2 to IRS
records provided by the SSA to determine to whom the SSA assigned the SSN.
13
   Restoring Earnings To Lift Individuals and Empower Families Act of 2001, H.R. 1836, as agreed to by the
Senate. This bill was submitted to the House of Representatives and eventually became the Economic Growth and
Tax Relief Reconciliation Act of 2001, Pub. L. No. 107-16, 115 Stat. 38 (2001).
                                                      4

head of household filing status. Unauthorized resident aliens claimed this status on
about 160,000 (30.2 percent) of the approximately 530,000 tax returns filed during
TY 2001.
Finally, unauthorized resident aliens using an ITIN as their identification number
prepared over 6,700 tax returns for U.S. citizens. The IRS’ reliance on unauthorized
resident aliens for tax return preparation may have an adverse impact on public
confidence and satisfaction with the tax system.
On July 8, 2003, we issued a memorandum to the IRS (see Appendix VIII) that stated
unauthorized resident aliens would be eligible for the accelerated CTC and ACTC
disbursements under the newly passed 14 and proposed legislation.15 We estimated that
these disbursements could be $150 million. We recommended that the IRS
Commissioner advise the Department of the Treasury concerning the potential conflict
with immigration law, delay sending the disbursements until questionable identifications
could be resolved, and propose legislation to limit the ACTC, similar to the EITC, for
unauthorized resident aliens. The IRS provided a reasoned response to the
memorandum (see Appendix IX). The Department of the Treasury was advised of our
concern about the credits and the process of considering legislation to limit the ACTC
was initiated. The IRS stated that it was not authorized to delay the disbursements
because unauthorized resident aliens are entitled to the credit by the current law.
The IRS recognizes the need to address the ITIN tax administration challenges. The
IRS chartered an ITIN Task Force, accepted most of its recommendations, and
established an ITIN Project Office that is implementing the accepted recommendations.
In addition, the IRS established an ITIN position in the National Taxpayer Advocate
(NTA) Service and is initiating procedures to assist taxpayers who might have been
victims of identity theft.
We recommended that the Commissioner, Wage and Investment (W&I) Division issue
instructions to 2d, 2e----------- ---------------------------that have questionable identification
issues, 2d, 2e-----------------------------------------------------------(Recommendations 1 and 2),
and communicate this problem to persons providing assistance with return preparation
and filing (Recommendations 3, 4, and 5). 2d, 2e-----------------------------------------
2d, 2e-- the Commissioner, W&I Division, should 2d, 2e------------unreported income
and improve assistance to victims of identity theft (Recommendations 6, 7, and 8). The
Deputy Commissioner for Services and Enforcement should determine whether any
actions are warranted against persons preparing or assisting with the preparation of tax
returns with questionable identification (Recommendations 9 and 13), coordinate with
the Bureau of Citizenship and Immigration Services (BCIS)16 and the SSA to assess the
benefits to these agencies of seeking legislation to broaden the IRS’ authority to share
information (Recommendation 10), seek legislation to generally require persons who


14
   Jobs and Growth Tax Relief Reconciliation Act of 2003, Pub. L. No. 108-27, 117 Stat. 752.
15
   Relief for Working Families Tax Act of 2003, H.R. 1308, as amended, and pending in Conference Committee.
16
   The Department of Homeland Security’s BCIS assumed the INS’ customer service responsibilities in 2003. This
Bureau is now known as the U.S. Citizenship and Immigration Services.
                                                   5

are compensated for assisting with preparing or filing tax returns be a U.S. citizen or a
resident alien authorized to work in the U.S. (Recommendation 11), and define and tax
unauthorized resident aliens more like nonresident aliens (Recommendation 12).
Management’s Response: IRS management expressed agreement with 5 of the
13 recommendations. They agreed with Recommendation 5 and will work with software
developers to modify computer programs used by Electronic Return Preparers (ERP).
They also agreed with Recommendation 8 and will e xplore using Federal Trade
Commission data to reduce the tax administration effects of identity theft. In addition,
management agreed with Recommendations 10, 11, and 12 by initiating the process
through which the legislative proposals would be considered. These proposals included
broadening the use of IRS data by other Federal agencies, preventing unauthorized
resident aliens from working in the tax return preparation industry, and changing the
taxation of income reported by unauthorized resident aliens. Management provided
corrective actions for each of these issues. Moreover, management is taking additional
actions on ITIN issues not included in the scope of the review, such as the changes
recently announced for the ITIN application process.
Management partially agreed with Recommendations 3 and 4 involving tax return
preparation assistance provided by paid preparers, ERPs, and volunteer groups.
Management is taking corrective action on Recommendation 3 and already has
programs that address Recommendation 4. However, management indicated that paid
preparers and volunteers are not required to verify the identification information
provided by a taxpayer.
Management expressed disagreement with six recommendations. They did not agree
with Recommendations 1 and 22d, 2e-----------------------------------------------
2d, 2e-------------------------------- Management advised that they have seen no evidence
that ITIN holders are more or less accurate in calculating their tax liabilities than any
other taxpayer group. Management also advised that the economic and noneconomic
costs (e.g., taxpayer burden) of implementing a new policy would outweigh the potential
benefits to tax administration.
Management did not agree at this time with Recommendations 6 and 7, 2d,2
2d, 2 e------------------------------------ -------------------------------------------------to address
underreported income and identity theft. Management advised that implementing this
system was currently not feasible 2d, 2e----------------------and that a cost -benefit
analysis would be needed. Management also advised that they would continue to study
whether the system might become feasible in the future.
Also, management disagreed with Recommendations 9 and 13. These
recommendations concerned the suitability of administrative or legal actions involving
tax preparation situations, such as individuals who prepare or assist with preparing or
filing tax returns with questionable identification and paid preparers identifying
themselves with ITINs. However, management followed the intent of the
recommendations by receiving IRS Office of Chief Counsel’s advice. Its Chief Counsel
indicated that no actions were warranted.
                                                 6

Recommendations 1, 2, 6, 7, 10, and 12 included outcome measures. Since
management did not agree with Recommendations 1, 2, 6 and 7, they did not agree
with the outcome measures associated with them. Furthermore, management stated
that it was not appropriate to comment on the outcome measures for
Recommendations 10 and 12 involving tax policy.
Management’s complete response to the draft report is included as Appendix X.
Office of Audit Comment: Management’s corrective action for Recommendation 10 was
to initiate the process through which the legislative proposals would be considered by
sharing our report with the Assistant Secretary for Tax Policy at the Department of the
Treasury and other Federal agencies. We encourage the IRS to further its coordination,
and take a more proactive role by offering to these agencies in-depth guidance on the
type of information the IRS receives, its privacy concerns, and the potential impact of
legislation on tax administration. This approach could assist Federal agencies in
determining whether legislation would help them achieve their missions, understanding
the IRS’ interests, and, therefore, deciding whether to coordinate with the Assistant
Secretary.
Management’s corrective action for Recommendation 11 was to initiate the process for
considering this legislative proposal by sharing our report with the Assistant Secretary
for Tax Policy and the NTA. However, management did not specifically address the
recommendation for the IRS to supplement the NTA’s existing proposal for legislation
regulating paid preparers.
Likewise, management’s corrective action for Recommendation 12 was to initiate the
legislative process by sharing our report with the Assistant Secretary for Tax Policy.
However, we are unclear whether the IRS agrees or disagrees from a tax administration
viewpoint since the IRS did not address these tax administration issues to the extent
permitted by its policy on providing comments on legislation.
It appears that the basis of the IRS’ disagreement with a part of Recommendations
3 and 4 was that paid preparers or volunteers should not verify taxpayer identification
information. However, we made no recommendation to take this action. The intent of
these recommendations was not to have a verification performed but simply to have two
different identification numbers identified. We believe these actions are unrelated. As a
result, this issue remains a concern.
We are unclear concerning management’s rationale for not implementing
Recommendations 1 and 2, 2d, 2e-------------------------------------------------------------- The
intent of the recommendations was not to question the ability to correctly calculate tax
2d, 2e--------------------, but rather to establish the identity of the filer. The
recommendations for paper filed and electronically filed returns follow the IRS’ current
application of the Internal Revenue Code provision 2d, 2e------------- ---------------------
2d, 2e------ 17 The recommendation for paper filed returns follows the methodology
currently used on 2d, 2e-------------------------- Consequently, the recommendations do

17
     2d, 2e------------------------
                                                         7

not constitute a new policy. By not taking action, the IRS will continue to hold U.S.
citizens and resident aliens authorized to work in the U.S. to a different standard than
that to which unauthorized resident aliens are held.
Similarly, different standards will continue to be applied because management
disagreed at this time with Recommendations 6 and 7 regarding unreported income and
identity theft. However, while management’s interest in the future feasibility of these
recommendations appears to be a corrective action, they did not identify the responsible
officials, set completion dates, or describe how any actions taken would be monitored.
We believe acting on underreported income is particularly important when the
percentage of people in America who think that it is acceptable to cheat on their Federal
income tax increased from 11 to 17 percent from 1999 to 2003.18 In our opinion, the
benefits of providing equal treatment to all taxpayers and of enabling assistance to as
many as 265,000 potential victims of identity theft would outweigh the relatively modest
processing cost of an estimated $435,000.19
Management disagreed with Recommendations 9 and 13. However, management’s
response showed that they followed our intent by receiving the Office of Chief Counsel’s
advice. While the response for Recommendation 9 addressed penalties against tax
return preparers, it did not address sanctions against ERPs, as described in the report.
Furthermore, the basis of management’s response appears to be similar to their basis
for Recommendations 3 and 4, which addressed verification of identification information.
As we noted, our interest was in detecting the use of two different identification
numbers. Consequently, we cannot be certain that management fully addressed this
issue and, as a result, it remains a concern.
Management’s response to Recommendation 13 indicated that resident aliens who are
not authorized to work in the U.S. are permitted to use ITINs to meet the IRS’
identification requirement for individuals who work, within the tax system, as paid
preparers. Furthermore, this issue aligns with the Federal Government’s focus on
citizenship issues: unauthorized resident aliens have access to sensitive identification
and financial information from potentially unsuspecting U.S. citizens. In our opinion,
these factors provide management with knowledge of an employment issue that is
inseparable from tax administration because of its potential impact on the public’s
confidence in the tax system. So, while no laws may have been violated, we believe
that the risk of continuing this practice outweighs its benefit to tax administration.
While we still believe our recommendations are worthwhile, we do not intend to elevate
our disagreement concerning them to the Department of the Treasury for resolution.




18
  2003 IRS Oversight Board Annual Survey on Taxpayer Attitudes, September 2003.
19
  Estimate based on the most recent cost figures available, as included in the IRS’ FY 2000 cost estimate guidelines.
Our estimate would increase for FY 2004 due to inflation. This figure does not include programming costs.
                                          8

Due to the nature of some material in this report, we have placed on the public
Treasury Inspector General for Tax Administration (TIGTA) Internet web site a
redacted version of the report. If you identify a need to release this report to
anyone outside of the IRS, please refer them to the redacted version on the TIGTA
Internet web site.
Copies of this report are also being sent to the IRS managers who are affected by the
report recommendations. Please contact me at (202) 622-6510 if you have questions or
Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (215) 516-2341.
     The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                      Significant Challenges for Tax Administration




                                                  Table of Contents


Background ...........................................................................................................Page 1
Attributes of Forms 1040 Filed by Resident Aliens .........................................Page 3
Forms 1040 Filed With an Individual Taxpayer Identification
Number Represent a Challenge for Tax Administration ................................Page 7
          Recommendations 1 and 2: ...................................................... Page 16
          Recommendation 3: ................................................................. Page 18
          Recommendation 4: ................................................................. Page 19
          Recommendations 5 through 7: ................................................ Page 20
          Recommendation 8: ................................................................. Page 21
          Recommendation 9: ................................................................. Page 22

Other Federal Government Agencies and Tax Policy Are
Affected by Individual Taxpayer Identification Number Usage. ....................Page 22
          Recommendation 10: ............................................................... Page 32
          Recommendations 11 and 12: .................................................. Page 33
          Recommendation 13: ............................................................... Page 34

Appendix I – Detailed Objective, Scope, and Methodology ..........................Page 35
Appendix II – Major Contributors to This Report.............................................Page 37
Appendix III – Report Distribution List...............................................................Page 38
Appendix IV – Outcome Measures....................................................................Page 39
Appendix V – Attributes of Forms 1040 Filed With an Individual
Taxpayer Identification Number in Tax Years 2000 and 2001......................Page 42
Appendix VI – Credits Claimed on Forms 1040 Filed With an
Individual Taxpayer Identification Number in Tax Years 1998-2001 ...........Page 43
Appendix VII – Explanation of the Term “Unauthorized Resident Alien” ....Page 44
Appendix VIII – Memorandum: Accelerating Scheduled Increases in
the Child Tax Credit and the Additional Child Tax Credit to
Unauthorized Resident Aliens Should Be Reconsidered...............................Page 48
   The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                    Significant Challenges for Tax Administration

Appendix IX – Management’s Response to Memorandum ...........................Page 58
Appendix X – Management’s Response to the Draft Report ........................Page 60
    The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                      Significant Challenges for Tax Administration

                                  To efficiently and effectively process tax returns, the
Background                        Internal Revenue Service (IRS) uses Taxpayer Identification
                                  Numbers (TIN). The TIN is a required entry on tax returns
                                  to facilitate tax administration. For individuals, the required
                                  TIN is the Social Security Number (SSN).
                                  The Internal Revenue Code (I.R.C.) also provides that any
                                  person required to file a return, statement, or other
                                  document shall include an identifying number for securing
                                  proper identification of that person. The SSN shall be used
                                  as the identifying number for such individual for this
                                  purpose, except as otherwise specified under regulations. 1
                                  A United States (U.S.) Individual Income Tax Return
                                  (Form 1040) is the primary tax return filed by individuals.
                                  In general, the Social Security Administration (SSA) limits
                                  its assignment of SSNs to individuals who are U.S. citizens
                                  and alien individuals legally admitted to the U.S. for
                                  permanent residence or under other immigration categories
                                  authorizing U.S. employment. Consequently, individuals
                                  who do not meet these criteria cannot obtain SSNs.
                                  In past years, alien individuals who could not obtain SSNs,
                                  and who had income that was taxable by the U.S., would
                                  file tax returns without identifying numbers. To help these
                                  taxpayers comply with the identification requirements of the
                                  I.R.C., Treasury Regulations 2 were issued in 1996 to
                                  provide for an Internal Revenue Service (IRS) Individual
                                  Taxpayer Identification Number (ITIN). The purpose of the
                                  ITIN was to provide alien individuals, whether or not they
                                  reside in the U.S., an identifying number for use in
                                  connection with U.S. tax return filing requirements.
                                  Also, the Treasury Regulation provides that the IRS assign
                                  ITINs to resident aliens who cannot obtain an SSN. The
                                  ITIN is intended for tax purposes only and creates no
                                  inference regarding an alien individual’s right to be legally
                                  employed in the U.S. and that individual’s immigration




                                  1
                                      26 U.S.C. § 6109 (2003).
                                  2
                                      Treas. Reg. § 301.6109.
                                                                                          Page 1
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              status 3 (i.e., the ITIN does not authorize a foreign individual
                              to work or live in the U.S.).
                              This audit serves as an in-depth analysis of data that were
                              developed in response to a request for information from the
                              Honorable Charles E. Grassley, then Ranking Member of
                              the Senate’s Committee on Finance. 4 The request concerned
                              the IRS programs for identifying illegal aliens 5 and for
                              sharing this information with the Bureau of Immigration and
                              Customs Enforcement (BICE) 6 and the SSA. This audit also
                              serves as a follow- up to our previous report on ITINs. 7
                              We performed our audit work between October 2002 and
                              March 2003 at the Headquarters of the Wage and
                              Investment (W&I) Division in Atlanta, Georgia; the
                              Headquarters of the Small Business/Self- Employed (SB/SE)
                              Division in New Carrollton, Maryland; and the IRS
                              National Headquarters in Washington, D.C. The audit was
                              performed in accordance with Government Auditing
                              Standards.


                              3
                                Treas. Reg. § 301.6109-1. 26 U.S.C. § 7701 (2003) defines a resident
                              alien as a resident of the U.S. for any calendar year if that individual
                              was lawfully admitted for permanent residence. A resident alien is also
                              a foreign person in the U.S. who meets the “substantial presence” test,
                              which is based on the number of days that person resides in the U.S. A
                              nonresident alien is neither a citizen of the U.S. nor a resident of the
                              U.S.
                              4
                                Senator Grassley is now the Chairman of the Senate’s Committee on
                              Finance.
                              5
                                The use of the term illegal alien would convey the same meaning as
                              the term unauthorized resident alien, as used later in this report. See
                              Appendix VII for an explanation of the term unauthorized resident
                              alien.
                              6
                                The request refers to the U.S. Immigration and Naturalization Service
                              (INS). The Department of Homeland Security assumed the INS’
                              responsibilities in 2003. Its BICE is responsible for law enforcement.
                              Its Bureau of Citizenship and Immigration Services (BCIS) is
                              responsible for customer service. The BICE is now known as the U.S.
                              Immigration and Customs Enforcement, and the BCIS is known as the
                              U.S. Citizenship and Immigration Services. These functions will be
                              referred to throughout this report when the source of the reported
                              information cited is the former INS.
                              7
                                The Internal Revenue Service’s Individual Taxpayer Identification
                              Number Program Was Not Implemented in Accordance with Internal
                              Revenue Code Regulations (Reference Number 094505, dated
                              September 1999).
                                                                                              Page 2
    The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                      Significant Challenges for Tax Administration

                                  Detailed information on our audit objective, scope, and
                                  methodology is presented in Appendix I. Major
                                  contributors to the report are listed in Appendix II.
                                  We performed extensive analysis of Forms 1040 that had an
Attributes of Forms 1040 Filed
                                  ITIN as the identifying number to provide decision makers
by Resident Aliens                and stakeholders with information. This evaluation
                                  included identifying attributes of these Forms 1040, such as
                                  income, deductions, credits and refunds, and the related tax
                                  administration issues that affect compliance with tax laws
                                  and regulations.
                                  To perform the analysis, we reviewed tax return documents
                                  based on a statistical sample for Tax Year (TY) 2000. We
                                  then projected the sample results. From our sample
                                  analysis, we observed three attributes of the ITIN tax returns
                                  filed on a Form 1040. 8 Numbers have been rounded for
                                  presentation purposes.
                                  First, the ITIN does not authorize an individual to work in
                                  the U.S., yet the presence of the Wage and Tax Statement
                                  (Form W-2) in the filer’s name indicates wages from
                                  employment. For TY 2000, we determined that
                                  approximately 353,000 Forms 1040 with an ITIN were filed
                                  by resident aliens who were not authorized to work in the
                                  U.S., yet the tax returns showed wages. The analysis also
                                  showed that 278,000 of these filers received refunds of
                                  $262 million.
                                  Second, we estimate that the 353,000 returns included
                                  309,0009 paper filed returns with 265,000 10 SSNs that the
                                  SSA did not assign to the individual who used it as the
                                  identification number on the Form W-2. These returns also
                                  included an estimated 89,000 SSNs that the SSA never
                                  issued. We concluded that these resident aliens used
                                  incorrect SSNs because, most likely, they could not legally


                                  8
                                    An analysis of the IRS’ actions to resolve any tax returns with a
                                  balance due was beyond the scope of this review.
                                  9
                                    The margin of error is +/- 12,385 tax returns.
                                  10
                                     The margin of error is +/- 17,732 SSNs. Projection based on a
                                  statistically valid sample of paper filed TY 2000 Forms 1040 filed with
                                  an ITIN as the primary number for resident aliens with Forms W-2
                                  attached, and comparing the SSN on the Form W-2 to IRS records
                                  provided by the SSA to determine to whom the SSA assigned the SSN.
                                                                                                  Page 3
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              obtain an SSN. Therefore, these resident aliens were
                              apparently employed without authorization. 11
                              Finally, unauthorized resident aliens did not report on their
                              TY 2000 Forms 1040 income from wages and nonemployee
                              compensation of an estimated $324 million. 12 These filers
                              represent almost one of every four individuals who filed a
                              Form 1040 with an ITIN.
                              For TY 2001, we computer analyzed the IRS tax return
                              information for the resident aliens filing
                              530,000 Forms 1040. These tax returns:13
                              ?? Reported adjusted gross income (AGI) 14 of
                                 $10.7 billion, which was reduced by $7.5 billion for
                                 deductions. These deductions included the standard
                                 deduction, itemized deductions, and exemptions for the
                                 filers, the filers’ spouses, and their dependents.
                              ?? Claimed tax due before credits of $495 million and then
                                 reduced tax due with credits of $149 million. 15 The
                                 credits included the Child Tax Credit (CTC), Dependent
                                 Care Credit, Education Credit, Foreign Tax Credit, and
                                 Credit for the Elderly.
                              ?? Claimed refunds of $522 million.
                              ?? Reported no tax liability on 285,000 (54 percent) of the
                                 530,000 tax returns filed.
                              ?? Received Federal Government payments totaling
                                 $160.5 million for the Additional Child Tax Credit
                                 (ACTC), $151 million of which was paid to
                                 190,000 individuals who had no tax liability. In




                              11
                                 See Appendix VII for an explanation of the term unauthorized
                              resident alien.
                              12
                                 The margin of error is +/- $122 million. The wide precision is caused
                              by the number of returns in the sample with this attribute.
                              13
                                 See Appendices V and VI for details concerning these attributes.
                              14
                                 26 U.S.C. § 62 (2003) provides that AGI is income from all taxable
                              sources reduced by certain deductions, such as business expenses,
                              retirement savings, and alimony payments.
                              15
                                 See Appendix VI for additional information on each credit.
                                                                                              Page 4
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                                   addition, $1.5 million was paid for the Earned Income
                                   Tax Credit (EITC). 16
                              ?? After all deductions and credits, reported a total tax
                                 liability of $184 million, or 1.7 percent of the
                                 $10.7 billion in AGI.
                              We identified an estimated 84,000 electronically filed
                              returns reporting wages and having ITINs on both
                              Forms 1040 and W-2. However, since the ITIN cannot be
                              used for work purposes, it is unlikely that the employer
                              provided a Form W-2 with the ITIN as the identifying
                              number. 17
                              In all likelihood, the number of Forms 1040 with ITINs will
                              increase. Resident aliens filing Forms 1040 identified with
                              an ITIN have increased from approximately 266,000 in
                              TY 1999 to approximately 530,000 in TY 2001, as shown in
                              Figure 1.




                              16
                                 The EITC is a refundable tax credit for eligible individuals and
                              families who work and have earned income under a specified dollar
                              amount. The individual must have an SSN that allows that individual to
                              work. SSNs are required for that individual, the individual’s spouse (if
                              filing a joint return), and qualifying child.
                              17
                                 The margin of error is +/- 2,144 tax returns.
                                                                                              Page 5
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                                             Figure 1: Income Tax Returns Filed by Resident Aliens and
                                                               Nonresident Aliens


                                                            Resident Aliens vs. Nonresident Aliens

                                                       600000




                                   Number of Returns
                                                       500000

                                                       400000
                                                       300000
                                                                                                   Resident Aliens
                                                       200000
                                                                                                   Nonresident
                                                       100000                                      Aliens

                                                           0
                                                                 1999      2000       2001
                                                                         Tax Year

                              Source: IRS ITIN Usage Report, 1999-2001, and Treasury Inspector
                              General for Tax Administration (TIGTA) analysis for TY 2001.

                              In fact, the number of Forms 1040 with an ITIN processed for
                              TY 2001 represents a 99 percent increase over a 3- year
                              period. During these same years, the number of all
                              Forms 1040 processed increased by only 2.8 percent.
                              This rapid growth will continue if the number of recently
                              issued ITINs can be used as an indication of future filing
                              trends. As shown in Figure 2, resident aliens account for a
                              significant majority of individuals to whom ITINs were
                              issued. The IRS issued almost 6 million ITINs to resident
                              and nonresident aliens in Calendar Years (CY) 1996
                              through 2002. Resident aliens accounted for 60 percent, and
                              nonresident aliens accounted for a little over 33 percent of
                              the ITINs issued. 18




                              18
                                The IRS categorized the remaining 7 percent of the ITINs issued as
                              “Other.” An analysis of this category was beyond the scope of this
                              review.
                                                                                                 Page 6
      The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                        Significant Challenges for Tax Administration

                                                                 Figure 2: ITINs Assigned by the IRS


                                                           1000000
                                                            900000
                                                            800000




                                          ITINs Assigned
                                                            700000
                                                            600000
                                                            500000
                                                            400000
                                                            300000
                                                            200000
                                                            100000
                                                                 0




                                                                   96




                                                                                                   00
                                                                                          99
                                                                          97


                                                                                 98




                                                                                                          01


                                                                                                                   02
                                                                 19




                                                                                                 20
                                                                                        19
                                                                        19


                                                                               19




                                                                                                        20


                                                                                                                 20
                                                                                      Calendar Year
                                                                 Nonresident Aliens            Resident Aliens

                                    Source: TIGTA analysis of the IRS Database for ITINs.

                                    Moreover, the number of ITINs issued to resident aliens,
                                    their spouses, and dependents increased from 693,000 in
                                    CY 2001 to 925,000 in CY 2002, a 1-year increase of
                                    33 percent. The IRS Commissioner stated that the IRS
                                    Taxpayer Assistance Centers (TAC)19 in the Western and
                                    Southwestern parts of the U.S. help between 100 and
                                    150 noncitizens seeking ITINs per day.
                                    Forms 1040 filed with ITINs represent a challenge for tax
Forms 1040 Filed With an            administration. Two tax administration concerns arose from
Individual Taxpayer
                                    these returns:
Identification Number Represent
a Challenge for Tax                 ?? Unauthorized resident aliens with questionable
Administration                         identification benefit 2d, 2e--------------------------------
                                       2d, 2e--------------- -------------------------- -




                                    19
                                       The TACs primarily serve taxpayers who choose to seek help from
                                    the IRS in person. The IRS employees who work in the TACs provide
                                    services such as assisting in interpreting tax laws and regulations,
                                    preparing some tax returns, and resolving inquiries on taxpayer
                                    accounts.
                                                                                                                        Page 7
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              ?? Unauthorized resident aliens, who did not report in
                                 TY 2000 an estimated $324 million in income, would
                                 benefit 2d, 2e-----------------------------------------------
                                 ------------------------------------------------- -- -
                              Unauthorized resident aliens with questionable
                              identification benefit 2d, 2e-----------------------------------
                              2d, 2e-----------------------------------------------
                              2d, 2e------------------------------------------------------------------
                              2d, 2e----------------------- even though they filed
                              Forms 1040 with incorrect or altered identification
                              information on their Forms W-2. Persons preparing tax
                              returns for compensation (paid preparers) and, occasionally,
                              IRS employees and federally funded volunteers supported
                              by the IRS,21 assisted with 81 percent of these returns in
                              TY 2000 and 75 percent in TY 2001. The situation is
                              different for paper filed and electronically filed returns.
                              Paper filed Forms 1040
                              2d, 2e-------------------------------------------------------------
                              ------------------------------------------------------------------
                              2d, 2e---- This situation occurs when Forms 1040 are
                              identified with an ITIN, but one or more of the attached
                              Forms W-2 is identified with an SSN. We estimate 2d, 2e---
                              2d, 2e----------309,000 TY 2000 Forms 1040 with
                              questionable identification.
                              2d, 2e-------------------------- ----------------------------------------
                              ------------------------- -- -----------------------------------------
                              ---------------------------------------------------------------------
                              ------------------------------------------------------------------------
                              ------------------------------------------------------------------ -----
                              ---------------------------------------------------------------------
                              ---------------------------------------------------------------------------
                              -------------------------- -


                              20
                                  The IRS identifies unreported income through its Automated
                              Underreporter (AUR) document matching program. The AUR program
                              compares income reported on tax returns to income reported by
                              third-party sources, such as the Forms W-2 submitted through the SSA
                              to the IRS by employers.
                              21
                                  These volunteers are associated with the Volunteer Income Tax
                              Assistance and the Tax Counseling for the Elderly programs.
                              2d
                                 , 2e-------------------
                                                                                                Page 8
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              2d, 2e------------------------------------------- the IRS ITIN
                              Task Force recommended in September 2002 that an
                              automated system be developed2d, 2e------------------
                              2d, 2e--------------------------------------------------------------
                              2d, 2e----- -3 However, the IRS did not take this action
                              pending further study of the issue.
                              In August 2002, the IRS Commissioner advised the
                              Department of the Treasury 2d, 2e-----------------------
                              -------------------------------------------------------------------------
                              ----------------------------------------------------------------------
                              2d, 2e---------------------------------------------------------- The
                              IRS did not take action because it believed there would be a
                              significant cost to developing and implementing the
                              required procedures. 24
                              2d, 2e----------------------------------------------------- -
                              ------- -----------------------------------------------------------
                              ------------------------------------------------------------------------
                              - ----------------
                              Potential violations of tax statutes and the identity theft
                              statute – 2d, 2e------------------------------------------ -
                              2d, 2e------------------------------------------there is concern
                              whether potential violations of tax laws may have been
                              committed which affect tax administration. In general, the
                              tax law provides that the tax return information be true.
                              There are three provisions concerning the information on
                              the tax return. First, the I.R.C. states, “that any return,
                              declaration, statement, or other document required to be
                              made under any provision of the internal revenue laws or
                              regulations shall contain or be verified by a written
                              declaration that it is made under the penalties of perjury.”25
                              Individuals convicted of perjury may be subject to fines and
                              imprisonment. 26


                              23
                                 Internal Revenue Service Individual Taxpayer Identification Number
                              (ITIN) National Task Force Final Report (September 2002).
                              24
                                 The Internal Revenue Service’s Individual Taxpayer Identification
                              Number Program Was Not Implemented in Accordance with Internal
                              Revenue Code Regulations (Reference Number 094505, dated
                              September 1999).
                              25
                                 26 U.S.C. § 6065 (2003).
                              26
                                 18 U.S.C. § 1621 (2003).
                                                                                                Page 9
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              Second, the I.R.C. states that, “any person who willfully
                              aids or assists in the preparation or presentation of a return,
                              which is fraudulent or is false as to any material matter shall
                              be guilty of a felony and subject to fines and
                              imprisonment.”27
                              Finally, “any person who willfully delivers or discloses to
                              the Secretary any list, return, account, statement, or other
                              document, known by him to be fraudulent or to be false as
                              to any material matter shall be guilty of a felony, and
                              subject to fines and imprisonment.”28
                              In the case of the ITIN returns, there is further concern
                              whether there were potential violations of the identity theft
                              statute. We estimate that the 309,000 TY 2000 Forms 1040
                              included 265,000 SSNs that did not belong to the
                              individuals who filed the tax returns or to their spouses.
                              Seventy-nine percent of these 309,000 tax returns received a
                              refund. The SSA had assigned these SSNs to other
                              individuals. This indicates the possibility that the SSNs
                              were fraudulently used.
                              The Identity Theft and Assumption Deterrence Act of
                              199829 provides that a criminal offense is committed if an
                              individual knowingly uses, without lawful authority, a
                              means of identification of another individual with the intent
                              to commit any unlawful activity that constitutes a violation
                              of Federal law. This would include using another
                              individual’s personal identifying information, such as an
                              SSN, and providing that SSN to obtain a tax refund.
                              The IRS Criminal Investigation (CI) function is authorized
                              to investigate the submission of potential fraudulent or false
                              documents in connection with a return and fraudulent claims
                              for a refund. The CI function can also investigate potential
                              identity theft when one of these tax violations is already
                              present. The facts and circumstances of the potential tax
                              and identity theft violations, as they pertain to Forms 1040
                              identified with an ITIN, may not fall within the guidelines
                              for initiating an investigation.


                              27
                                 26 U.S.C. § 7206 (2003).
                              28
                                 26 U.S.C. § 7207 (2003).
                              29
                                 Pub. L. No. 105-318, 112 Stat. 3007 (1998).
                                                                                     Page 10
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              Assisting the victims of identity theft – Law enforcement
                              officials have characterized identity theft as the fastest
                              growing type of crime in the U.S. 30 Identity theft headed the
                              Federal Trade Commission’s (FTC) list of the top
                              10 consumer fraud complaints for 2001 and 2002. 31 The
                              FTC stated that, in CY 2001, approximately 1,700 victims
                              reported “fraudulent claims for tax returns in their name.”
                              In CY 2002, almost 3,100 victims reported tax
                              return-related fraud. Some of these instances may have
                              involved Federal tax. 32
                              When the use of a false SSN results in the IRS making an
                              unwarranted contact with a taxpayer, the IRS Commissioner
                              stated, “Not only will the innocent taxpayer undergo the
                              burden of resolving this issue with the IRS, their social
                              security earnings and FICA withholding must be
                              corrected.”33 The IRS is addressing the victims of identity
                              theft through its National Taxpayer Advocate (NTA)
                              Service and initiating procedures to assist taxpayers in
                              response to reports of identity theft.
                              We recognize these efforts. However, the IRS does not take
                              advantage of all available methods to reduce the
                              consequences of identity theft that might affect taxpayers.
                              When it processes Forms 1040, the IRS does not2d, 2e----
                              2d, 2e--------------------------------------------------------------
                              2d, 2e--------------------------------------------Nor has the IRS
                              determined whether the FTC’s data could be used to assist
                              taxpayers.



                              30
                                 Identity Theft - Greater Awareness and Use of Existing Data Are
                              Needed (GAO-02-766, dated June 2002).
                              31
                                 FTC, Identity Theft Complaint Data – Figures and Trends on Identity
                              Theft, January 2001 through December 2001; FTC, National and State
                              Trends in Fraud and Identity Theft, January – December 2002. The
                              FTC is responsible for the Federal Go vernment’s centralized complaint
                              and consumer education service for victims of identity theft. The FTC
                              does not keep statistics showing the number of reported identity thefts
                              affecting Forms 1040.
                              32
                                 FTC reports for 2001 and 2002.
                              33
                                 FICA stands for the Federal Insurance Contributions Act. FICA
                              payroll withholding finances benefits for retired workers and their
                              dependents, as well as for disabled workers and their dependents. The
                              FICA tax is also known as the Social Security tax.
                                                                                            Page 11
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              Electronically filed Forms 1040
                              2d, 2e---------------------------------------the IRS has a method
                              to identify electronically filed Forms 1040 with two
                              different identification numbers. 2 d, 2e------------------------
                              2d, 2e------------------------------------------------------------
                              ----------------------------------------------------------------
                              2d, 2e------------------------ However, this process is
                              ineffective for two reasons.
                              First, 2d, 2e-------------------------------------------------------
                              ---------------------------------------------------------------------
                              -------------------------------------------------------------------------
                              -----------------------------------------------------------------
                              --------------------------------------------------------------------------
                              -----------------------------------------------------------------------
                              -------------------------------------------------------------
                              ------------------------------------------------------------------
                              ------------------------------------------------------------------------
                              ---------------------------------------------------- -------------------
                              ---------------------------------------------------------------------
                              ---------------------------------------------------------------
                              The IRS no longer assists taxpayers with this type of
                              2d, 2e------return. Instead, the IRS employees were
                              instructed to direct taxpayers to a volunteer program for
                              assistance 2d, 2e------------- In effect, the IRS transferred to
                              volunteer organizations any risk of providing return
                              preparation assistance 2d, 2e------------------------------------- -
                              Second, 2d, 2e---------------------- electronically filed tax
                              returns on which the Form W-2 identification number was
                              apparently changed from the number appearing on the
                              original Form W-2. The IRS processed an estimated
                              84,000 TY 2001 Forms 1040 filed with an ITIN that
                              reported wages 34 and refunded $121 million; it rejected only
                              119 of these returns.
                              In all likelihood, the Form W-2 identification numbers were
                              changed between the time the Forms W-2 were issued by
                              the employer and the time the tax returns were electronically
                              filed with the IRS. As a result, using ITINs on Forms W-2
                              submitted with electronically filed tax returns may raise

                              34
                                   The margin of error is +/- 2,144 tax returns.
                                                                                               Page 12
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              concerns over potential violations of tax statutes similar to
                              concerns that may arise when two different identification
                              numbers are used on paper filed tax returns.
                              2d, 2e--------------------------------------------------------
                              -------------------------------------------------------------------------
                              --------------------------------------------------------------
                              -----------------------------------------------------------------------
                              -------------------------------------------------------------------
                              --------------------------------- -----------------------------------
                              ----------------------------------- -
                              Why Form W-2 identification is changed – Not surprisingly,
                              electronic filers usually were assisted by IRS-authorized
                              Electronic Return Providers (ERP)35 and, on occasion, by
                              the IRS’ own employees and volunteers, as shown in
                              Table 1.
                                   Table 1: Electronic Filing Assistance Provided on TY 2001
                                                   Forms 1040 With an ITIN

                                   Tax Return Prepared by         Number of Tax        Percentage of
                                                                    Returns            Tax Returns

                               IRS-Authorized Electronic
                               Return Originators                            79,125              94.6%
                               IRS                                            1,558               1.9%
                               IRS-Supported Volunteer Tax
                               Assistance Programs                              636               0.8%
                               Total Assisted                                81,319             97.3%
                               Taxpayer Prepared                              2,308               2.8%

                               Total Processed by the IRS                    83,627              100%

                              Source: The IRS Electronic Tax Administration Research and Analysis
                              System.36 Percentages do not total to 100 percent due to rounding.

                              These Forms W-2 were filed with incorrect identification
                              numbers for several reasons. The IRS advised the ERPs not


                              35
                                 There are four categories of Electronic Return Providers (ERP), each
                              of which has a separate role in the electronic return preparation and
                              filing process. One type, the Electronic Return Originator, is discussed
                              later in this report.
                              36
                                 This system provides information on tax returns filed electronically.
                              This information is used solely for research purposes, such as
                              identifying error trends and how errors were resolved.
                                                                                               Page 13
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              to alter Form W-2 information and to confirm the identity
                              and identification number of the taxpayer. The IRS also
                              indicated that it would not accept a tax return for electronic
                              processing when the identification number on Form W-2
                              does not match the identification number on Form 1040.
                              However, to file electronically, the Form W-2 identification
                              number must be changed or the IRS will not accept the
                              return for processing.
                              In addition, IRS employees and volunteers did not follow
                              instructions to prepare only paper returns. The IRS stated
                              that preparing electronic tax returns would involve changing
                              the identification number on the Form W-2.
                              Computer programs used by the ERPs may automatically
                              change the Form W-2 number. We tested four computer
                              programs used to prepare electronic tax returns, including
                              one used by IRS employees and volunteers. The preparer
                              enters the identification number under which the Form 1040
                              will be filed. This identification number is automatically
                              updated to the Form W-2 information. So, when an ITIN is
                              used for the Form 1040, the computer program will
                              automatically insert the ITIN as the Form W-2 identification
                              number.
                              Similar to paper filed returns, taxpayers and preparers may
                              be subject to perjury and fraud statutes when information is
                              changed. In addition, the ERPs may be subject to income
                              tax return preparer penalties. These penalties can be
                              considered when an ERP makes changes to a tax return,
                              other than a transposition error, misplaced entry, spelling
                              error, or arithmetic correction. The IRS can also sanction an
                              ERP for violating the requirements of the electronic filing
                              program. These sanctions include a written reprimand,
                              suspension, or expulsion from the program, depending upon
                              the seriousness of the infraction.
                              We expect this issue to become more prominent in the
                              future. The IRS electronically processed over
                              86,70037 TY 2001 Forms 1040 with an ITIN, almost
                              doubling the estimated 44,000 electronic returns with ITINs
                              processed in TY 2000. The IRS Restructuring and Reform

                              37
                                All electronically filed tax returns, including the 84,000 reporting
                              wages.
                                                                                               Page 14
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              Act of 1998 (RRA 98) 38 established a goal that 80 percent of
                              all tax returns should be filed electronically by 2007.
                              Unauthorized resident aliens who did not report in
                              TY 2000 an estimated $324 million in income benefit
                              2d, 2e-----------------------------------------------------------------
                              ------------------ ----------------------
                              2d, 2e--------------------------------------------------------------
                              ------------------------------------------------------------------
                              2d, 2e--- For TY 2000, we estimate that 82,000 39 returns
                              filed by unauthorized resident aliens did not report income
                              from wages and nonemployee compensation of
                              $324 million, 40 an average of almost $4,000 per tax return.
                              These 82,000 underreporters represent 23 percent of all
                              unauthorized resident aliens who filed tax returns.
                              Therefore, almost one of every four filers did not report all
                              their income as required by law. Over one- half of these
                              underreporters claimed no tax liability on their tax returns.
                              One of the IRS’ strategic goals is to provide service to all
                              taxpayers by increasing the fairness of compliance and
                              increasing overall compliance. To help achieve this goal,
                              the IRS identifies unreported income through its Automated
                              Underreporter (AUR) document matching program and by
                              examining tax returns. However, neither method is fully
                              effective for finding and taxing income not reported by
                              unauthorized resident aliens.
                              2d, 2e-------------------------------------------------------------------
                              -------------------------------------------------------------------
                              ----------- ------------------------------------------------------
                              -----------------------------------------------------------------
                              ------------------------------------------------------------------------

                              38
                                 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                              sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                              23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                              39
                                 The margin of error is +/- 15,866 tax returns.
                              40
                                 Projection based on a statistically valid sample of TY 2000
                              Forms 1040 with an ITIN for resident aliens claiming wages and
                              nonemployee compensation 2d, 2e--------------------------------------
                              2d, 2e-------------------------------------------The IRP proces ses
                              information returns submitted either on magnetic media or electronically
                              from businesses; financial institutions; and Federal, state, and local
                              governments.
                                                                                             Page 15
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              2d, 2 e-------------------------------------------------------------
                              ----------------------------------------------------------------------
                              --------------------------------------------------- -
                              -----------------------------------------------------------------------
                              ----------------------------------------------------------------
                              ------------------------------------------------------------------------
                              ----- -----------------------------------------------------------------
                              ------------------------------------------------------------------------
                              --------------------------------------------------------------------
                              ---------------------------------------------------------------- -------
                              ------------------------------------------- -
                              The IRS can also identify unreported income through
                              examinations. However, of the 353,000 TY 2000
                              Forms 1040 filed with an ITIN and reporting wages, 2d, 2e--
                              -----------------------------------------------------------------------
                              Examinations of returns submitted by these filers may
                              become even less frequent because the IRS is redirecting its
                              resources to higher- income taxpayers.
                              The IRS recognizes the need to address the ITIN tax
                              administration challenges. The IRS chartered an ITIN Task
                              Force, accepted most of its recommendations, and
                              established an ITIN Project Office that is implementing the
                              accepted recommendations. In addition, the IRS established
                              an ITIN position in the NTA Service and is initiating
                              procedures to assist taxpayers who might have been victims
                              of identity theft. Our recommendations to supplement these
                              actions follow.

                              Recommendations

                              The Commissioner, W&I Division, should:
                              1. Identify paper filed Forms 1040 with an ITIN having a
                                 related Form W-2 with an SSN, 2d, 2e------------------
                                 -------------------------------------------------------
                                 ---------------------------------- -
                              2. Identify electronically filed tax returns where both the
                                 Form 1040 and related electronic Form W-2 are filed
                                 with an ITIN, 2d, 2e----------------------------------------
                                 2d, 2e------------------------------------------------ Since the
                                 IRS’ electronic control already rejects tax returns when
                                                                                              Page 16
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                                   identification numbers do not match, no electronically
                                   filed return with an ITIN should be accepted.
                              Management’s Response: Management did not agree that
                              2d, 2e----------------------------------------------------------------
                              2d, 2e---would improve tax administration. 2d, 2e-------
                              2d, 2e-------------------------------- ------------------------------
                              Management has seen no evidence that ITIN holders are
                              more or less accurate in calculating their tax liabilities than
                              any other taxpayer group. 2d, 2e---------------------------------
                              ----------------------------------------------- ----------------- ----
                              -----------------------------------------------------------------------
                              ------------------------------------------------------------------ -
                              2d, 2e----------------------------------------------------------------
                              ---------------------------------------------------------------------------
                              ---------------------------------------------- -------------------------
                              -----------------------------------------------------------------------
                              -----------------------------------------------------------------------
                              -------------------------------------------------------------------------
                              ------------------- ------------------------- -------------------
                              -------------------------------------------------------------------------
                              -------------------------------------------------------------------
                              -------------------------------------------------------------------
                              ----------------------------------------------------------------
                              ----------------------- ---------------------------------------------
                              Office of Audit Comment: We are unclear concerning the
                              IRS’ rationale for not implementing these recommendations.
                              The intent was not to question the ability to correctly
                              calculate tax 2d, 2e-------------------, but ra ther to establish
                              the identity of the filer. The recommendations for paper
                              filed and electronically filed returns follow the IRS’ current
                              application of the I.R.C. provision 2d, 2e-----------------
                              2d, 2e--------------------- 42 and the recommendation for paper
                              filed returns follows the methodology currently used on
                              2d, 2e------------------------- - Consequently, the
                              recommendations do not constitute a new policy. In fact,
                              the IRS Commissioner advised the Chairman of the U.S.
                              Senate Committee on Finance that the IRS routinely uses its


                              41
                                  The filing season is the period from January through mid-April when
                              most individual income tax returns are filed.
                              2d
                                 , 2e----------------------------
                                                                                              Page 17
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              authority 2d, 2e-----------------------------------------------
                              -------------------------------------------------------------------------
                              2d, 2e--------------------------------------------------------- --3 In
                              FY 2000, the IRS used this authority over 1.2 million
                              times 44 2d, 2e--------------------------------------------------------
                              2d, 2e------------------------------- Therefore, the issue is not a
                              matter of accurately calculating tax liability but rather the
                              consistency of the identification numbers on the tax returns,
                              schedules, or statements.
                              We disagree with the decision to 2d, 2e----------------
                              electronic returns for ITIN filers when the Forms W-2 show
                              ITINs. As a result, 2d, 2e---------------------------------------
                              2d, 2e--even though the Form W-2 identification numbers
                              were probably changed between the time they were issued
                              by the employer and the time the returns were filed.
                              By not taking action on paper filed and electronically filed
                              returns, the IRS will continue to hold U.S. citizens and
                              resident aliens authorized to work in the U.S. to a different
                              standard than that to which unauthorized resident aliens are
                              held.
                              Additionally, management’s response seems to address an
                              overall ITIN filer tax compliance issue that these
                              recommendations do not address, but which is addressed by
                              Recommendation 6. While management states 2d, 2e-----
                              2d, 2e----------------------- ----------------------with
                              underreporting tax liability, the report shows that one in four
                              of these TY 2000 filers had underreported their income.
                              3. Conduct outreach to advise paid preparers and ERPs that
                                 the ITIN is not a legal identification number for
                                 employment and that their customers may be using
                                 fraudulent or erroneous SSNs on Forms W-2. In
                                 addition, they should be advised that the electronic
                                 Form W-2 information must show the identification
                                 number that appears on the Form W-2 as issued by the
                                 employer.




                              2d
                                 , 2e------------------------------------------------------------------------------
                              --------------------------------------------------------------- -
                              44
                                  Does not include identification mismatches related to the EITC.
                                                                                                          Page 18
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              Management’s Response: Management agreed, in part, with
                              this recommendation. The Office of Taxpayer Education
                              and Communication, SB/SE Division, will conduct outreach
                              and provide advice to paid preparers and ERPs through the
                              SB/SE Division Payroll and Practitioner’s Forum, the IRS
                              Stakeholder Headliners, and the IRS e-News for Tax
                              Practitioners. The Director, Electronic Tax Administration,
                              will conduct outreach to alert paid preparers and ERPs to
                              the allowable use and application of ITINs and the
                              importance of not altering Form W-2 information.
                              However, management stated that paid preparers and ERPs
                              are not required to verify the identification information
                              provided by a taxpayer.
                              Office of Audit Comment: The intent of the
                              recommendation is not to verify identification information,
                              but simply to identify two inconsistent identification
                              numbers used on Forms 1040 and Forms W-2. We believe
                              the issue of verifying identification information is separate
                              from the issue of identifying two different identification
                              numbers. We made no recommendation concerning this
                              issue and did not include it in the scope of the audit.
                              4. Ensure that IRS employees and volunteer programs do
                                 not assist with the preparation or filing of tax returns
                                 with questionable identification.
                              Management’s Response: Management agreed with this
                              recommendation to the extent that IRS programs already
                              address it. Training was provided to volunteers regarding
                              identification ve rification, and the existing training advises
                              volunteers to refuse return preparation if there are concerns
                              regarding the validity of documents. The IRS Field
                              Assistance sites stopped preparing returns with mismatched
                              TINs during the 2003 Filing Season. However,
                              management stated that return preparers are not required to
                              verify identification information provided by a taxpayer.
                              Office of Audit Comment: Similar to our comments for
                              Recommendation 3, the purpose of this recommendation is
                              not to put volunteers in the position of performing
                              identification information verification. As we reported, the
                              IRS does not permit its own employees to assist with these
                              returns. 2d, 2e--------------------------------------------------
                              ------------------------------------------------------ --------------------
                                                                                               Page 19
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              2d, 2e---------------------------------------------------------------
                              -------------------------------------------------------------------------
                              --------------------------------------------------------------
                              -----------------------------------------------------------------------
                              2d, 2e------------------------------------- The fact that there are
                              two different identification numbers should preclude the
                              volunteers from assisting in return preparation, just as it
                              precludes IRS employees from assisting in return
                              preparation.
                              5. Advise developers of electronic filing computer
                                 programs to modify these programs to prevent the
                                 automatic update of Form W-2 identification
                                 information when an ITIN is used on Form 1040.
                              Management’s Response: The IRS will work with the
                              software developers to ensure that their e-file programs
                              validate that the information populated on the Form 1040
                              agrees with the information contained on the Form W-2.
                              This will prevent the automatic update of Forms W-2 when
                              an ITIN is used on Form 1040.
                              2d, 2e------------------------------------------------------
                              2d, 2e----------------------------------------------------- the
                              Commissioner, W&I Division, should:
                              6. 2d, 2e----------- unreported income from third -party
                                 records 2d, 2e-- - -------------------------------------
                                 2d, 2e-------------------------------------------------
                              7. Identify potential victims of identity theft and minimize
                                 the possibility of unwarranted IRS contacts 2d, 2e---
                                 2d, 2e------------------------------------------- -
                              Management’s Response: Management did not agree with
                              the recommendations at this time, stating that a cost-benefit
                              analysis of implementing 2d, 2e-------- --------------------
                              would need to be undertaken. 2d, 2e----------------------
                              2d, 2e-----------------------------------------------------------------
                              -----------------------------------------------------------------------
                              2d, 2e-- Management stated that while these actions are
                              currently not feasible, they will continue to study whether
                              the actions might become feasible in the future.
                              Office of Audit Comment: While management’s interest in
                              the future feasibility of these recommendations appears to

                                                                                               Page 20
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              be a corrective action, management did not identify the
                              responsible officials, set completion dates, or describe how
                              any actions taken would be monitored. We determined that
                              the corrective action would involve 2d, 2e-------------------
                              2d, 2e---- an estimated 444,000 of the 89 million paper filed
                              TY 2001 Forms 1040, or about one- half of 1 percent. The
                              processing cost would be approximately $435,000. 45 In
                              FY 2003, the IRS had a budget approaching $10 billion. By
                              not 2d, 2e---------------------- the IRS continues to hold U.S.
                              citizens to a higher standard than that to which it holds
                              unauthorized resident aliens.
                              As we stated in the report, one in four TY 2000 Forms 1040
                              filed with an ITIN by resident aliens had underreported
                              income2d, 2e------------------------------------------------ In
                              contrast, available statistics show that one in nine tax returns
                              2d, 2e--------------------------------------for potentially
                              discrepant income or deductions. While these results may
                              not be directly comparable to those in the report, the results
                              suggest that the noncompliance rate of Forms 1040 with an
                              ITIN could be higher than that for all Forms 1040.
                              Furthermore, we believe taking action is of heightened
                              importance when the percentage of people in America who
                              think that it is acceptable to cheat on their Federal income
                              tax returns increased from 11 to 17 percent between 1999
                              and 2003. 46 In our opinion, providing equal treatment to all
                              taxpayers and enabling the IRS to assist as many as
                              265,000 potential victims of identity theft would outweigh
                              the costs.
                              8. Determine whether the FTC’s data on identity theft can
                                 be used to assist taxpayers who might be victims of this
                                 violation.
                              Management’s Response: The ITIN Program Office will
                              contact the FTC to determine whether the data contained in



                              45
                                 Estimate based on the most recent cost figures available, as included
                              in the IRS’ FY 2000 cost estimate guidelines. Our estimate would
                              increase for FY 2004 due to inflation. This figure does not include
                              programming costs.
                              46
                                 2003 IRS Oversight Board Annual Survey on Taxpayer Attitudes,
                              September 2003.
                                                                                              Page 21
      The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                        Significant Challenges for Tax Administration

                                    its database can be used by the IRS to assist victims of
                                    identity theft.
                                    The Deputy Commissioner for Services and Enforcement
                                    should:
                                    9. Determine whether any actions are warranted against
                                       taxpayers, ERPs, IRS employees, and volunteers who
                                       prepare or assist with preparing or filing of tax returns
                                       with questionable identification.
                                    Management’s Response : The IRS Office of Chief Counsel
                                    advised that a person who prepares or assists with the
                                    preparation or filing of a tax return is not subject to a
                                    preparer penalty merely because the taxpayer’s
                                    identification on the return is questionable. The IRS stated
                                    that return preparers are not required to verify the
                                    identification information provided by a taxpayer, and the
                                    recognition of such questionable identification may be
                                    beyond their expertise.
                                    Office of Audit Comment: Management’s response showed
                                    that they followed the intent of the recommendation by
                                    obtaining the IRS Office of Chief Counsel’s advice.
                                    However, while the response addressed penalties against tax
                                    return preparers, it did not address sanctions against ERPs,
                                    as described in the report. Furthermore, the basis of
                                    management’s response appears to be similar to their basis
                                    for Recommendations 3 and 4, which addressed verification
                                    of identification information. As we noted, our interest was
                                    in detecting the use of two different identification numbers.
                                    Consequently, we cannot be certain that management fully
                                    addressed this issue. Moreover, we believe that the preparer
                                    community could recognize the use of two inconsistent
                                    identification numbers if the IRS includes this information
                                    as part of its action on Recommendation 3. As a result of
                                    these factors, this issue remains a concern.
                                    Other Federal Government agencies and tax policy issues
Other Federal Government
                                    are affected by ITIN usage. The two concerns that arose
Agencies and Tax Policy Are
                                    from the analysis of these returns are:
Affected by Individual Taxpayer
Identification Number Usage         ?? Other Federal Government agencies are affected
                                       because unauthorized resident aliens benefit from the tax
                                       law that generally prohibits the disclosure of tax
                                       information to other Federal Government agencies.
                                                                                           Page 22
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              ?? From a tax policy perspective, unauthorized resident
                                 aliens benefit from the tax law when they are treated the
                                 same as U.S. citizens.
                              Other Federal Government agencies are affected
                              because unauthorized resident aliens benefit from the
                              tax law that generally prohibits the IRS from sharing
                              with other Federal Government agencies tax return
                              information submitted by taxpayers
                              There are at least two Federal Government agencies that
                              could benefit from the information that the IRS receives on
                              Forms 1040 that use ITINs. The IRS does not share this
                              information with the other agencies.
                              Available statistics indicate that unauthorized resident aliens
                              are increasing in number, despite efforts to prevent unlawful
                              entry. The Bureau of Citizenship and Immigration Services
                              (BCIS) estimated that the total unauthorized resident alien
                              population had doubled in the past decade, from 3.5 million
                              in 1990 to 7 million in 2000. On average, this population
                              grew by 350,000 annually. 47
                              The IRS does have information on some of the unauthorized
                              resident aliens. However, the tax law generally prohibits the
                              IRS from sharing tax return information submitted by
                              taxpayers with other Federal Government agencies unless
                              there is a specific legislated exception. 48 Because the IRS is
                              unable to share this information, it cannot assist with
                              addressing unauthorized immigration or unauthorized work.
                              In turn, this creates the need to administer tax laws to an
                              increasing number of unauthorized resident aliens.
                              The IRS cannot share information with the BICE
                              The Illegal Immigration Reform and Immigrant
                              Responsibility Act of 1996 (IIRIRA)49 provided that
                              information concerning immigration status should be
                              reported to the BICE notwithstanding any other law. The
                              General Accounting Office (GAO) testified before the
                              Congress that the BICE needed to coordinate with other

                              47
                                 Estimates of the Unauthorized Immigrant Population Residing in the
                              United States: 1990 to 2000 (2003).
                              48
                                 26 U.S.C. § 6103 (2003).
                              49
                                 Pub. L. No. 104-208, 110 Stat. 3009 (1996).
                                                                                           Page 23
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              Federal Government agencies to effectively implement its
                              strategies for controlling illegal immigration. 50
                              In our opinion, the IRS is able to identify some
                              unauthorized resident aliens by using its ITIN records but by
                              law is unable to share this information with other Federal
                              Government agencies. The I.R.C. provides that this
                              information is confidential, and it does not include a
                              provision for disclosing this information.
                              In 1999, we first reported on the apparent conflict between
                              immigration and tax laws. 51 We recommended that the ITIN
                              program disclosure policy be brought into conformance with
                              the immigration law. The IRS advised us that the disclosure
                              law would need to be changed to specifically permit the IRS
                              to follow the IIRIRA. While the disclosure law was
                              amended, it provides only for certain disclosures involving
                              terrorism. 52 Therefore, the IRS is unable to assist the BICE
                              with information about potential unauthorized resident
                              aliens. In light of the events of September 11, 2001, and the
                              importance of homeland security, the apparent conflict
                              between immigration and tax law remains a concern.
                              Unauthorized resident aliens are preparing tax returns
                              for U.S. citizens
                              Paid preparers are required to show on the tax return their
                              SSN or Preparer Tax Identification Number (PTIN). An
                              ITIN recipient is not authorized to obtain a PTIN.
                              For TY 2001, 290 ITINs were shown as the preparer’s
                              identification number on 8,179 tax returns. Of these returns,
                              6,747 (82 percent) were filed by taxpayers with SSNs who,
                              therefore, likely were U.S. citizens or foreign individuals



                              50
                                 Immigration Enforcement - Challenges to Implementing the INS
                              Interior Enforcement Strategy (GAO-02-861T, dated June 2002).
                              51
                                 The Internal Revenue Service’s Individual Taxpayer Identification
                              Number Program Was Not Implemented in Accordance with Internal
                              Revenue Code Regulations (Reference Number 094505, dated
                              September 1999).
                              52
                                 Victims of Terrorism Relief Act of 2001, Pub. L. No. 107-134,
                              115 Stat. 2427 (2002). This law amended 26 U.S.C. § 6103 to provide
                              for disclosure until December 31, 2003, of certain IRS information in
                              the event of a terrorist incident, threat, or activity.
                                                                                            Page 24
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              legally residing in the U.S. Most of these tax returns were
                              prepared by 42 individuals, as shown in Table 2.
                                      Table 2: Unauthorized Resident Aliens Prepared TY 2001
                                             Forms 1040 for Taxpayers Filing with SSNs



                                      Number of                  Number of
                                                   Number of                   % of Total Tax
                                     Tax Returns                   Tax
                                                   Preparers                      Returns
                                       Prepared:                  Returns
                                         Strata
                                   10 or more               42        6,459                  96%
                                   Less than 10           190          288                      4%
                                   Totals                 232        6,747                 100%

                              Source: TIGTA analysis of the IRS Returns Transaction File (RTF).53

                              Consequently, unauthorized resident aliens would ha ve
                              access to sensitive data such as SSNs and financial records,
                              which could be used inappropriately. Yet, the IRS cannot
                              share this information with other Federal Government
                              agencies or the affected taxpayers.
                              The IRS NTA reported to the Congress that the re are no
                              national standards that a person is required to satisfy before
                              presenting himself or herself as a Federal tax preparer and
                              selling tax preparation services to the public. To address
                              this issue, the NTA recommended that the Congress enact a
                              registration, examination, certification, and enforcement
                              program for persons who prepare Federal tax returns. 54
                              Although there are no overall standards for the preparer
                              industry, the IRS has standards for Electronic Returns
                              Originators (ERO). 55 Each ERO’s responsible officials must
                              be U.S. citizens or legal resident aliens and are subject to a
                              screening process as a condition of approval of their
                              application. However, individuals who work for those

                              53
                                 The RTF contains all edited, transcribed, and error-corrected data
                              from the Form 1040 series of tax returns and related forms for the
                              current processing year and 2 prior years.
                              54
                                 National Taxpayer Advocate FY 2002 Annual Report to Congress.
                              The NTA Service is an independent organization within the IRS that
                              helps taxpayers resolve problems with the IRS and recommends changes
                              that will prevent the problems.
                              55
                                 An ERO begins the process of transmitting a completed tax return to
                              the IRS. The ERO is one of the four categories of ERPs.
                                                                                          Page 25
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              EROs are not required to meet the same requirements.
                              Preparers with ITINs were affiliated with 15 businesses that
                              were approved by the IRS as EROs.
                              The IRS relies on EROs to confirm identities and
                              identification numbers shown on tax returns. The IRS has
                              stated that confirmation of identification numbers is “the
                              cornerstone of any fraud prevention program.” The IRS
                              asks the EROs to look for suspicious or altered Forms W-2
                              and fraudulent returns where an individual uses someone
                              else’s name or SSN. The IRS’ reliance on unauthorized
                              resident aliens to be watchdogs over fraud could cause the
                              IRS embarrassment and may have an adverse impact on
                              public confidence and satisfaction with the tax system.
                              The IRS cannot share information with the SSA
                              The second area of Federal Government concern is with
                              SSN identity theft. Go vernment agencies reported that
                              hundreds of thousands of unauthorized resident aliens have
                              used fraudulent documents, including Social Security cards,
                              to obtain employment. 56
                              The Inspector General of the SSA testified before the
                              Congress that identity the ft was already a significant
                              problem facing law enforcement, the financial industry, and
                              the American public before September 11, 2001. The
                              Inspector General stated that improperly obtained SSNs
                              were a factor in the terrorists’ ability to assimilate
                              themselves into American society while they planned their
                              attacks. The events of September 11, 2001, heightened the
                              urgency for protecting the integrity of SSNs. 57
                              The Social Security Act 58 provides that whoever, with the
                              intent to deceive, falsely represents a number to be his or
                              her SSN when, in fact, that number was not assigned to that
                              person, shall be guilty of a felony and subject to a fine,


                              56
                                 Immigration Enforcement - Challenges to Implementing the INS
                              Interior Enforcement Strategy (GAO-02-861T, dated June 2002).
                              57
                                 Statement of the Honorable James G. Huse, Jr., Inspector General,
                              SSA, Testimony Before the Subcommittee on Social Security of the
                              House Committee on Ways and Means and the Subcommittee on
                              Oversight and Investigations of the House Committee on Financial
                              Services, November 8, 2001.
                              58
                                 42 U.S.C. § 408 (2003).
                                                                                             Page 26
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              imprisonment, or both. This includes using a false SSN to
                              obtain employment.
                              The I.R.C. generally prohibits the IRS from disclosing this
                              information to the SSA. Consequently, the SSA would not
                              be provided with the opportunity to initiate investigations
                              based on the IRS information, and unauthorized resident
                              aliens would not be affected by the consequences of
                              potentially violating the Social Security statute.
                              Unauthorized resident aliens submitted to the IRS an
                              estimated 309,000 paper filed tax returns with an estimated
                              354,00059 SSNs on Forms W-2. These Forms W-2 included
                              265,000 SSNs that are assigned by the SSA to other
                              individuals.
                              As a possible indicator of a growing problem with identity
                              theft, the FTC stated that, in CY 2001, approximately
                              7,800 victims reported that the identity thief used the
                              victim’s personal information to obtain employment. 60 In
                              CY 2002, approximately 15,000 victims reported
                              employment-related fraud. 61
                              From a tax policy perspective, unauthorized resident
                              aliens benefit from the tax law when they are treated the
                              same as U.S. citizens
                              The I.R.C. defines for tax purposes the terms nonresident
                              alien and resident alien. A nonresident alien is neither a
                              citizen of the U.S. nor a resident of the U.S. A resident
                              alien is a resident of the U.S. for any calendar year if that
                              individual was lawfully admitted for permanent residence.
                              A resident alien is also a foreign individual in the U.S. who
                              meets the “substantial presence” test, which is based on the
                              number of days that individual resides in the U.S.62
                              Therefore, for tax purposes, an unauthorized alien residing
                              in the U.S. is a resident alien.
                              As a result, unauthorized resident aliens are taxed the same
                              as U.S. citizens and lawful resident aliens. An unauthorized

                              59
                                 The margin of error is +/- 21,348 SSNs.
                              60
                                 Identity Theft Complaint Data - Figures and Trends on Identity Theft,
                              January 2001 through December 2001.
                              61
                                 National and State Trends in Fraud and Identity Theft,
                              January - December 2002.
                              62
                                 26 U.S.C. § 7701.
                                                                                             Page 27
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              resident alien is entitled to the same deductions and credits
                              to reduce income tax, except for the EITC.
                              So, the question becomes whether the taxation of
                              unauthorized resident aliens should be more closely aligned
                              to that of nonresident aliens. Specifically, the ACTC
                              provides a tax policy conflict since other Federal
                              Government statutes prohibit treating unauthorized resident
                              aliens the same as U.S. citizens and lawful resident aliens.
                              The ACTC law provides for Federal Government
                              payments to unauthorized resident aliens who had no
                              income tax liability
                              One of the credits that unauthorized resident aliens are
                              entitled to is the ACTC. Over 203,000 unauthorized
                              resident aliens received $160.5 million in ACTC credits in
                              TY 2001. Of these filers, 190,000 had no tax liability and
                              received $151 million in Federal Government payments for
                              the ACTC.
                              The ACTC is one of only two major credits that can result
                              in a Federal Government payment above the tax liability;
                              the other credit is the EITC, which unauthorized resident
                              aliens are prohibited from receiving. 63 Despite the
                              difference in tax treatment, there are similarities between the
                              ACTC and EITC.
                              Like the ACTC, the EITC was available to unauthorized
                              resident aliens when it became law in 1975. 64 Subsequently,
                              the Congress and IRS expressed concerns about
                              noncompliance with EITC requirements, including fraud. 65
                              The law was changed in 1996, in part to deny the EITC to
                              unauthorized workers; the tax return must be identified by


                              63
                                 While unauthorized resident aliens are not permitted to receive the
                              EITC, they can attempt to obtain the credit by claiming it on the line
                              provided for this purpose on Form 1040. In TY 2001, 17,797 filers
                              claimed $31.1 million. However, the IRS allowed only 843 filers
                              credits of $1.5 million. Determining the reason that these claims were
                              paid was beyond the scope of this review.
                              64
                                 Tax Reduction Act of 1975, Pub. L. No. 94-12, 89 Stat. 26 (1975).
                              65
                                 Earned Income Credit - Data on Noncompliance and Illegal Alien
                              Recipients (GAO/GGD-95-27, dated October 1994). The term Earned
                              Income Credit is interchangeable with the term Earned Income Tax
                              Credit that is used throughout this report.
                                                                                            Page 28
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              an SSN issued to an individual by the SSA for work
                              purposes. 66
                              One of the legislative purposes for the ACTC is similar to
                              the purpose for the EITC. Prior to the EITC law change, the
                              GAO reported that awarding the EITC to illegal aliens 67 was
                              at cross-purposes with Federal Government policies that
                              prohibit illegal aliens from working in the U.S. 68 Similar to
                              the purpose of EITC, the Senate stated that tax law changes
                              to the CTC and ACTC were intended for “low income
                              working families to promote work.”69 Like the EITC,
                              providing the ACTC to resident aliens who are not
                              authorized to work is inconsistent with the immigration law
                              that prohibits employing unauthorized resident aliens.
                              Moreover, we identified an early indication of a similar
                              filing pattern between the ACTC and EITC. Between 1975
                              and 1993, the maximum amount of the EITC increased from
                              $200 to $2,364. As the amount of the EITC increased:
                              ?? The number of Internal Revenue Service Numbers
                                 (IRSN), the predecessor to the ITIN, increased
                                 significantly. The IRS assigned approximately
                                 1,800 IRSNs in 1975, which increased to 175,000
                                 assigned in 1993.
                              ?? The amount of the EITC claimed on returns assigned an
                                 IRSN increased from a projected $141,000 in 1986 to a
                                 projected $197 million in 1993.
                              Recent tax return filings show that the ACTC may be
                              following a similar pattern. The ACTC first became
                              available in TY 1998. Taxpayers needed three or more
                              qualifying children to receive the credit. In TY 2001, the
                              number of qualifying children was changed to one or more.

                              66
                                 Personal Responsibility and Work Opportunity Reconciliation Act of
                              1996, Pub. L. No. 104-193, 110 Stat. 2105 (1996).
                              67
                                 The GAO defined an illegal alien as a foreign person who is in the
                              U.S. without a lawful immigration status.
                              68
                                 Earned Income Credit - Targeting to the Working Poor
                               (GAO/GGD-95-122BR, dated March 1995).
                              69
                                 Restoring Earnings To Lift Individuals and Empower Families Act of
                              2001, H.R. 1836, as agreed to by the Senate. This bill was submitted to
                              the House of Representatives and eventually became the Economic
                              Growth and Tax Relief Reconciliation Act of 2001, Pub. L. No. 107-16,
                              115 Stat. 38 (2001).
                                                                                            Page 29
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              While this reduction may have accounted for some of the
                              increase in the ACTC, it may have also made obtaining an
                              ITIN more appealing.
                              ?? The IRS assigned 123,000 ITINs to resident aliens in
                                 CY 1998, the first year that the ACTC could be claimed.
                                 This rose to 339,000 ITINs in CY 2001 and 538,000 in
                                 CY 2002.
                              ?? In TY 2000, the last year that 3 children were required
                                 to claim the ACTC, over 62,000 ITIN filers received an
                                 estimated $62 million in ACTC. In TY 2001, when the
                                 number of qualifying children was reduced,
                                 203,000 ITIN filers received $160.5 million in ACTC.
                              On July 8, 2003, we issued a memorandum to the IRS (see
                              Appendix VIII) that stated unauthorized resident aliens
                              would be eligible for both the accelerated CTC
                              disbursements under the newly passed Jobs and Growth Tax
                              Relief Reconciliation Act of 2003, 70 and ACTC
                              disbursements under the proposed Relief for Working
                              Families Tax Act of 2003. 71 We estimated that the
                              accelerated disbursements could be $150 million.
                              We recommended that the IRS Commissioner advise the
                              Department of the Treasury about the apparent conflict with
                              the immigration law, delay sending the accelerated
                              disbursements until questionable identifications could be
                              resolved, and propose legislation to place limitations on the
                              ACTC, similar to the EITC, for unauthorized resident aliens.
                              In response to the memorandum, the IRS advised the
                              Department of the Treasury of our concern about the credits
                              and started the process of considering legislation to limit the
                              ACTC. The IRS stated that it was not authorized to delay
                              the disbursements because unauthorized resident aliens are
                              entitled to the credit by law. The response is included as
                              Appendix IX.




                              70
                                   Pub. L. No. 108-27, 117 Stat. 752.
                              71
                                   H.R. 1308, as amended, and pending in Conference Committee.
                                                                                           Page 30
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              While virtually the same tax treatment is provided to all
                              residents, the same treatment is not provided to all aliens
                              While unauthorized resident aliens are taxed like other
                              residents, they are not taxed like aliens who do not reside in
                              the U.S. but have U.S. source income. Thus, as a matter of
                              tax law, unauthorized resident aliens are treated virtually the
                              same as U.S. citizens and lawful resident aliens.
                              Nonresident aliens cannot receive certain benefits from the
                              tax law that would reduce their tax bills. For example, for
                              TY 2001:
                              ?? Nonresident aliens cannot claim the standard deduction.
                                 Instead, they must itemize deductions. This may lower
                                 the amount of deductions from income and increase the
                                 tax liability. In contrast, unauthorized resident aliens
                                 claimed the standard deduction in 489,000
                                 (92.3 percent) of the 530,000 tax returns filed,
                                 decreasing reported AGI by $3.2 billion.
                              ?? Nonresident aliens cannot claim the Education Credit.
                                 In contrast, 10,000 unauthorized resident aliens claimed
                                 $7.4 million in credits to decrease their tax liabilities.
                              ?? Unmarried nonresident aliens cannot claim the lower tax
                                 rate of the head of household filing status. In contrast,
                                 resident aliens claimed this status in 160,000
                                 (30.2 percent) of the 530,000 tax returns filed.
                              ?? Nonresident aliens could not receive a rate reduction
                                 credit. For TY 2001, unauthorized resident aliens
                                 received $53 million72 in advance payments for the rate
                                 reduction credit. Those that did not receive an advance
                                 payment claimed $63 million in credits to reduce their
                                 tax liabilities when they filed their TY 2001 tax returns.
                              The Federal Government has recognized that unauthorized
                              resident aliens are not always entitled to benefit from the
                              same laws as U.S. citizens. For example, the Social
                              Security Act provides that they are not entitled to receive
                              benefits from Old-Age, Survivors, and Disability Insurance
                              benefits. 73


                              72
                                   The margin of error is +/- $7,724,530.
                              73
                                   42 U.S.C. § 202 (2003).
                                                                                     Page 31
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              Similarly, the State of Wisconsin recognized that
                              individuals who have not been granted immigrant status by
                              the BCIS should be taxed differently from other state
                              taxpayers. Wisconsin requires that these individuals be
                              taxed like nonresidents of Wisconsin. Consequently, they
                              are not eligible for the Working Families Tax Credit or the
                              Homestead Credit.
                              When unauthorized resident aliens receive the ACTC like
                              U.S. citizens and lawful resident aliens, the legislative
                              purposes for assisting lawful working taxpayers may be
                              compromised. The current tax laws and policy are favoring
                              individuals who already may not have complied with
                              immigration, Social Security, and identity theft laws.

                              Recommendations

                              The Deputy Commissioner for Services and Enforcement
                              should:
                              10. Coordinate with the BCIS and the SSA to assess the
                                  benefits to these agencies of seeking legislation to
                                  broaden the IRS’ authority to share information with
                                  them regarding unauthorized resident aliens and seek
                                  legislation as warranted.
                              Management’s Response: Management’s overall response
                              to the content of the report stated, “Despite the distinctly
                              undesirable behaviors actually or potentially associated with
                              ITINs, the Service remains legally responsible for
                              enforcement of the nation’s Federal tax laws with respect to
                              ITIN holders…” and that it has “statutory responsibilities
                              and limitations to which the Service is subject that prevent
                              or limit the Service from taking actions that might be
                              desirable as matters of public policy.”
                              Management’s specific response to the recommendation
                              stated that if the BCIS and SSA can demonstrate a need for
                              the IRS’ information that clearly outweighs taxpayer
                              privacy interests and concerns about the effect such sharing
                              has on tax administration, they should coordinate with the
                              Office of the Assistant Secretary for Tax Policy at the
                              Department of the Treasury to seek a legislative proposal to
                              change I.R.C. § 6103. Management indicated they will

                                                                                   Page 32
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                              share a copy of this report with the Office of the Assistant
                              Secretary for Tax Policy, the BCIS, and the SSA.
                              Office of Audit Comment: While management recognized
                              that there are “distinctly undesirable behaviors actually or
                              potentially associated with ITINs,” it has limited its
                              coordination to sharing the report with the Assistant
                              Secretary for Tax Policy and other Federal agencies. We
                              encourage the IRS to take a more proactive role with these
                              agencies by providing more in-depth guidance on the type
                              of information the IRS receives, its privacy concerns, and
                              the potential impact of legislation on tax administration.
                              This approach could assist Federal agencies in determining
                              whether legislation would help them achieve their missions,
                              understanding the IRS’ interests, and, therefore, deciding
                              whether to coordinate with the Assistant Secretary for Tax
                              Policy. In addition, although not included in our
                              recommendation, we also encourage the IRS to share a copy
                              of the report with the BICE.
                              11. Supplement the NTA’s recommendation for a
                                  certification program for tax preparers by proposing
                                  that, in general, (1) preparers must be U.S. citizens or
                                  resident aliens authorized to work in the U.S. and
                                  (2) individuals who assist with electronically filed tax
                                  returns for U.S. residents, and who are affiliated with an
                                  ERO, must be U.S. citizens or resident aliens authorized
                                  to work in the U.S.
                              Management’s Response: A copy of this report will be
                              shared with the NTA and the Office of the Assistant
                              Secretary for Tax Policy, which is responsible for proposing
                              legislative changes.
                              Office of Audit Comment: We are unclear from the
                              response whether the IRS plans to supplement the NTA’s
                              recommendation for a certification program for tax
                              preparers. While the IRS will share a copy of the report
                              with the NTA and the Office of the Assistant Secretary for
                              Tax Policy, management did not specifically address the
                              recommendation for the IRS to supplement the NTA’s
                              existing proposal for legislation regulating paid preparers.
                              12. Seek legislation to define and tax individuals who file
                                  tax returns reporting income from employment, but who
                                                                                     Page 33
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                  Significant Challenges for Tax Administration

                                 are not authorized to be employed in the U.S., more like
                                 nonresident aliens.
                              Management’s Response: A copy of this report will be
                              shared with the Office of the Assistant Secretary for Tax
                              Policy, which is responsible for proposing legislative
                              changes.
                              Office of Audit Comment: We are unclear whether the IRS
                              agrees or disagrees from a tax administration viewpoint
                              since the IRS did not address these tax administration issues
                              to the extent permitted by its policy on providing comments
                              on legislation.
                              13. Determine whether tax return preparers who use ITINs
                                  as identification have violated any laws that the IRS is
                                  authorized to investigate and, if so, determine whether
                                  these violations warrant any action.
                              Management’s Response: The IRS Office of Chief Counsel
                              has indicated that inasmuch as the IRS requires a paid return
                              preparer to furnish an identifying number, the tax return
                              preparers who are not eligible for an SSN are not in
                              violation of 26 U.S.C. § 6109(a)(4) or any revenue laws if
                              they enter their ITIN. An individual who is not eligible for
                              an SSN generally is expected to use an ITIN whenever such
                              person is required to furnish an identifying number for tax
                              administration purposes.
                              Office of Audit Comment: Management’s response
                              indicated that resident aliens who are not authorized to work
                              in the U.S. are permitted to use ITINs to meet the IRS’
                              identification requirement for individuals who work, within
                              the tax system, as paid preparers. Furthermore, this issue
                              aligns with the Federal Government’s focus on citizenship
                              issues: unauthorized resident aliens have access to sensitive
                              identification and financial information from potentially
                              unsuspecting U.S. citizens.
                              In our opinion, these factors provide management with
                              knowledge of an employment issue that is inseparable from
                              tax administration because of its potential impact on the
                              public’s confidence in the tax system. So, while no laws
                              may have been violated, we believe that the risk of
                              continuing this practice outweighs its benefit to tax
                              administration.
                                                                                    Page 34
     The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                       Significant Challenges for Tax Administration

                                                                                                      Appendix I


                          Detailed Objective, Scope, and Methodology

Our overall objective was to analyze United States (U.S.) Individual Income Tax Returns
(Form 1040) filed with an Internal Revenue Service (IRS) Individual Taxpayer Identification
Number (ITIN) by resident aliens for Tax Year (TY) 2001 and, where applicable, TY 2000. This
evaluation included identifying attributes of these Forms 1040, such as income, deductions,
credits and refunds, and the related tax administration issues that affect compliance with tax laws
and regulations. 1 To accomplish the objective, we:
I.       Determined the filing attributes for Forms 1040.
         A.       Obtained a statistically valid sample of Forms 1040 for TY 2000 for review.
                  1.       Identified from the Returns Transaction File (RTF) 2 Forms 1040 meeting
                           our criteria: filed for TY 2000, identified by an ITIN as the primary
                           identification number, and filed by a resident alien.
                  2.       Selected from the universe of 353,373 tax returns a statistically valid
                           sample of 353 tax returns for review using a confidence level of
                           95 percent, a precision level of +/- 2.5 percent, and an expected rate of
                           occurrence not less than 95 percent. We obtained guidance on our
                           sampling methodology from the IRS Office of Statistics of Income.
                  3.       Obtained the original Forms 1040 and information from the IRS Master
                           File 3 and Integrated Data Retrieval System. 4
         B.       Quantified selected data from the TY 2000 tax returns involving identification
                  numbers, dependents, income, deductions, credits, and refunds.
                  1.       Determined whether the identification numbers reported on the
                           Forms 1040 and the attached Wage and Tax Statements (Form W-2) were
                           both assigned to the same individual. We researched the IRS’ records
                           provided by the Social Security Administration to determine the identity
                           of the individual for both identification numbers.
                  2.       Determined who prepared the Forms 1040.


1
  An analysis of the IRS’ actions to resolve any tax returns with a balance due was beyond the scope of this review.
2
  The RTF contains all edited, transcribed, and error-corrected data from the Form 1040 series returns and related
forms for the current processing year and 2 prior years.
3
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
4
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                            Page 35
       The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                         Significant Challenges for Tax Administration

                 3.       Identified potential unreported income by reviewing records from the IRS
                          Information Returns Program (IRP) and comparing this information to the
                          tax return submitted by the taxpayer. 5
                 4.       Evaluated refunds by determining the amount of Rate Reduction Credit
                          received in advance for TY 2001.
          C.     Obtained an extract from the RTF for TY 2001 for Forms 1040 identified by an
                 ITIN as the primary identification number and filed by a resident alien. We
                 analyzed the data contained on the RTF, which included credits, deductions,
                 income, and return preparation.
          D.     Determined the number of electronically filed TY 2001 Forms 1040 identified
                 with an ITIN and reporting wages that were (1) processed by the IRS and
                 (2) rejected by the IRS because the Taxpayer Identification Number (TIN) on the
                 Form 1040 did not match the TIN on the Form(s) W-2. We analyzed data from
                 the IRS Electronic Tax Administration Research and Analysis System. 6
          E.     Evaluated the frequency of the examination of the filers’ books and records by
                 reviewing records from the IRS Audit Information Management System (AIMS). 7
II.        Compared the Form 1040 to the U.S. Nonresident Alien Income Tax Return
          (Form 1040NR) to identify differences in benefits such as credits and deductions.
III.      Analyzed the IRS ITIN Application Database for 1996 through 2002 to determine if each
          applicant was a resident or no nresident alien.




5
  The IRP processes information returns submitted either on magnetic media or electronically from businesses;
financial institutions; and Federal, state, and local governments.
6
  This system provides information on tax returns filed electronically. This information is used solely for research
purposes, such as identifying error trends and how errors were resolved.
7
  The AIMS is designed to give the IRS Compliance function information about tax returns in inventory and closed.




                                                                                                           Page 36
   The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                     Significant Challenges for Tax Administration

                                                                                  Appendix II


                            Major Contributors to This Report

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Edmond Watt, Audit Manager
Carole Connolly, Senior Auditor
Donna Saranchak, Senior Auditor
Lisa Stoy, Senior Auditor
Robert Weiss, Senior Auditor
Ronald Stuckey, Computer Specialist




                                                                                        Page 37
   The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                     Significant Challenges for Tax Administration

                                                                               Appendix III


                                 Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self- Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Chief, Criminal Investigation CI
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Electronic Tax Administration OS:CIO:I:ET
Director, Taxpayer Education and Communication, Small Business/Self- Employed Division
SE:S:T
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:M:CL
Director, Stakeholder Partnerships, Education, and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self- Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                     Page 38
      The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                        Significant Challenges for Tax Administration

                                                                                    Appendix IV


                                            Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. We have separated the outcome measures at
risk based on Tax Administration and Tax Policy issues. These benefits will be incorporated into
our Semiannual Report to the Congress.
We obtained guidance on our sampling methodology and projections from the Internal Revenue
Service (IRS) Office of Statistics of Income. Unless otherwise annotated, all computations are
based on a 5-year period, computed as follows: Year 1 = estimates and actual data for Tax
Year (TY) 2000, and Years 2 through 5 = actual data for TY 2001 which was used to compute
the outcomes for this 4-year period.
Type and Value of Outcome Measure:1
Tax Administration Issues
?? Revenue Protection – Potential; approximately 530,000 unauthorized resident aliens received
   approximately $2.4 billion in refunds 2d, 2e------------------------------------(see page 3).
      [TY 2000 $262 million x 1 year] + [TY 2001 $522 million x 4 years] = $2.4 billion
?? Increased Revenue – Potential; approximately 82,000 unauthorized resident aliens did not
   report income of $324 million from all sources. Using an effective tax rate of 1.7 percent,
   the tax effect would be approximately $27.5 million (see page 7).
      [TY 2000 $324 million x 1.7 percent in tax due = $5.5 million] x 5 years = $27.5 million
?? Cost Savings (Funds Put to Better Use) – Potential; unauthorized resident aliens working in
   the United States (U.S.) without authorization received the refundable Earned Income Tax
   Credit of approximately $7.3 million (see page 3).
      [TY 2000 $1.2 million x 1 year] + [TY 2001 $1.52 million x 4 years] = $7.3 million
?? Taxpayer Burden – Potential; over 265,000 taxpayers may have been the victims of identity
   theft by unauthorized resident aliens in TY 2000 (see page 7).
      Tax Policy Issues
?? Revenue Protection – Potential; unauthorized resident aliens received an accelerated payment
   of the Child Tax Credit of approximately $150 million in TY 2003 (see page 23).




1
    Figures in this appendix and Appendix V may not match due to rounding.
                                                                                           Page 39
    The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                      Significant Challenges for Tax Administration

?? Revenue Protection – Potential; unauthorized resident aliens claimed the standard deduction
   of $3.2 billion. Using an effective tax rate of 1.7 percent, there would be a tax effect of
   $272 million (see page 23).
    [TY 2001 $3.2 billion x 1.7 percent in tax due = $54.4 million] x 5 years = $272 million
?? Revenue Protection – Potential; unauthorized resident aliens received the Child Tax Credit of
   $597.3 million (see page 3).
    [TY 2000 $90 million x 1 year] + [TY 2001 $126.83 million x 4 years] = $597.3 million
?? Revenue Protection – Potential; unauthorized resident aliens received the Education Credit of
   $33.5 million (see page 23).
    [TY 2000 $4.1 million x 1 year] + [TY 2001 $7.35 million x 4 years] = $33.5 million
?? Revenue Protection – Potential; unauthorized resident aliens received the Credit for the
   Elderly of approximately $204,000 (see page 3).
    [TY 2000 $32,000 x 1 year] + [TY 2001 $43,000 x 4 years] = $204,000
?? Cost Savings (Funds Put to Better Use) – Potential; unauthorized resident aliens working in
   the U.S. without authorization received the refundable Additional Child Tax Credit of
   approximately $704 million (see page 23).
    [TY 2000 $62 million x 1 year] + [TY 2001 $160.53 million x 4 years] = $704.1 million
?? Taxpayer Privacy and Security – Potential; 8,200 returns and financial information were
   available to unauthorized resident aliens who prepared tax returns in TY 2001 (see page 23).
Methodology Used to Measure the Reported Benefits:
We obtained tax return data from the TYs 2000 and 2001 IRS Returns Transaction Files (RTF). 2
In addition, we selected a statistically valid sample of 353 TY 2000 Forms 1040 filed with an
Individua l Taxpayer Identification Number (ITIN) as the primary identification number from a
universe of 353,373 tax returns. Our sample was selected using a confidence level of 95 percent,
a precision level of +/- 2.5 percent, and an expected rate of occurrence not less than 95 percent.
We analyzed the attributes of the tax returns and the associated documents (i.e., Wage and Tax
Statement [Form W-2]). Our analysis included quantifying income, deductions, tax credits,
refunds, etc. We also obtained actual data for TY 2001 for returns filed by resident aliens with

2
 The RTF contains all edited, transcribed, and error-corrected data from the U.S. Individual Income Tax Return
(Form 1040) series returns and related forms for the current processing year and 2 prior years.




                                                                                                         Page 40
    The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                      Significant Challenges for Tax Administration

an ITIN. In addition, we obtained information from the IRS Master File 3 and Integrated Data
Retrieval System. 4




3
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
4
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.




                                                                                                           Page 41
    The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                      Significant Challenges for Tax Administration

                                                                                                  Appendix V


      Attributes of Forms 1040 Filed With an Individual Taxpayer Identification
                        Number in Tax Years 2000 and 2001 1
                 Category                         Tax Year          TY 2000           TY 2001         Percentage
                                                  (TY) 2000        Estimated           Actual           Change
                                                                 Margin of Error
                                                                       +/-
United States Individual Income Tax Returns            353,000             Actual          530,000              50%
(Form 1040)
Salaries and Wages Claimed                      $7,200,000,000      $474,000,000 $10,200,000,000                42%
Forms 1040 With a Tax Liability                        162,000            19,000         245,000                51%
Refunds Paid                                      $262,000,000              Actual  $522,000,000                99%
Rate Reduction Credit Allowed 2                    $53,000,000        $7,700,000     $63,000,000                19%
Child Tax Credit Allowed                           $90,000,000              Actual  $127,000,000                41%
Additional Child Tax Credit Paid                   $62,000,000       $16,000,000    $161,000,000               160%
Earned Income Tax Credit Paid                       $1,200,000              Actual    $1,500,000                25%
Education Credit Allowed                            $4,100,000              Actual    $7,400,000                80%
Foreign Tax Credit Allowed                          $1,300,000              Actual    $5,800,000               346%
Child and Dependent Care Credit Allowed             $4,900,000              Actual    $6,400,000                31%
Credit for the Elderly and Disabled Allowed            $32,000              Actual       $43,000                34%
                                                                                       3
Returns Prepared by Paid Preparers                     282,000            15,000         396,000                40%
Returns Prepared by Taxpayers                           66,000            14,000         128,000                94%
                                                                          4
Returns Prepared by IRS/Volunteers                       5,000              5,000          5,000                 0%
Paper Filed Forms 1040                                 309,000            12,000         444,000                44%
Electronically Filed Forms 1040                         44,000            12,000          86,000                95%
Social Security Numbers (SSN) Misused and              354,000            21,000    Not Available
Not Assigned to the Individual on the Wage
and Tax Statement (Form W-2)
SSNs Misused and Assigned to Someone Else              265,000            18,000      Not Available
Unreported Earned Income                          $324,000,000      $122,000,000      Not Available




1
  All figures are rounded to nearest thousands.
2
  The figure for TY 2000 is the estimated amount of advance payments received for TY 2001, and the TY 2001
figure is the amount claimed on TY 2001 tax returns by those who did not receive an advance payment of this credit.
3
  The sum of Returns Prepared by Paid Preparers, Taxpayers, and IRS/Volunteers does not equal 530,000 due to
rounding.
4
  The wide precision is caused by the number of returns in the sample with this attribute.




                                                                                                          Page 42
      The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                       Significant Challenges for Tax Administration

                                                                                                Appendix VI


    Credits Claimed on Forms 1040 Filed With an Individual Taxpayer Identification
                          Number in Tax Years 1998-20011
Tax Year       Forms Child Tax Child Tax Additional Additional  Child             Child     Foreign    Foreign
               10402    Credit  Credit   Child Tax Child Tax    Care              Care     Tax Credit Tax Credit
              filed by Allowed  Claims    Credit     Credit     Credit           Credit     Allowed    Claims
             Resident                      Paid      Claims    Allowed           Claims
               Aliens
                                                        3          2
    1998       213,995     $34,959      69,672                          $3,163     5,312      $6,567        196

                                                        2          2
    1999       271,912     $62,036      97,965                          $3,521     5,955      $6,269        251


    2000       353,373     $89,974     134,097    $61,952    62,434     $4,937     8,290      $1,269        289


    2001       529,977    $126,839     194,686   $160,534   203,156     $6,396    11,209      $5,817        302


    Totals   1,369,257    $313,808     496,420   $222,486   265,590    $18,017    30,766     $19,922      1,038



Tax Year      Earned      Earned     Education Education Credit for Credit for
              Income      Income       Credit    Credit     the        the
             Tax Credit     Tax       Allowed   Claims    Elderly    Elderly
                Paid       Credit                        Allowed     Claims
                          Claims
    1998        $2,572       1,286        $853      1,451       $16         67


    1999        $1,995       1,035      $2,035      3,278       $23       101



    2000        $1,184        662       $4,060      5,833       $32       129


    2001        $1,520        843       $7,354      9,995       $43       193


    Totals      $7,271       3,826     $14,302    20,557       $114       490




1
  Dollars in thousands.
2
  United States Individual Income Tax Return (Form 1040).
3
  This information was not developed.




                                                                                                       Page 43
    The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                     Significant Challenges for Tax Administration

                                                                                               Appendix VII


                  Explanation of the Term “Unauthorized Resident Alien”

This audit report uses the term unauthorized resident alien based on the evidence we found
during this and a prior analysis of the Internal Revenue Service (IRS) Individual Taxpayer
Identification Number (ITIN) process. Our conclusion is that, generally, the individuals who file
a United States (U.S.) Individual Income Tax Return (Form 1040) with an ITIN as the
identification number and receive wages that are identified with a Social Security Number (SSN)
on the attached Wage and Tax Statements (Form W-2) are unauthorized resident aliens. This
conclusion is based on the following evidence and assumptions.
Foreign individuals who received ITINs were residing in the U.S. without apparent
authorization by the U.S. Department of Homeland Security (DHS)
The Treasury Regulation providing for the ITIN states that, “Any individual who is not eligible
to obtain a social security number and is required to furnish a taxpayer identifying number must
apply for an IRS individual taxpayer identification number on Form W-7, Application for IRS
Individual Taxpayer Identification Number.…”1 The Form W-7 states, “Do not submit this form
if you have, or are eligible to obtain, a U.S. social security number (SSN).” The Form W-7
requires the applicant to provide identity information and support his or her claim of foreign
status (i.e., with passport or visa information).
During our prior audit of the ITIN process, 2 we identified Forms W-7 that were approved by the
IRS and showed applicants provided U.S. addresses and claimed to be U.S. resident aliens filing
U.S. tax returns. These Forms W-7 did not have passport information or U.S. visa information.
The absence of this information indicates the applicant may not have gained lawful entry into the
U.S. In fact, Forms W-7 had statements such as, “... NO LEGAL STATUS WITH INS”3 and
“Entered without a visa” for an indefinite stay in the U.S.
In a related opinion, 4 the IRS Office of the Assistant Commissioner (International) stated, “the
Form W-7 is to be used only by individuals who are not eligible to obtain an SSN, and that
citizens of the United States thus will not file a Form W-7.” The IRS Office of Chief Counsel
determined that, “the group of persons with United States federal tax obligations who are not
eligible to obtain an SSN is limited to non-citizens who either do not reside in the United States
or who reside here illegally.”

1
  Treas. Reg. § 301.6109. All references to “Treasury Regulation” in this appendix mean Treas. Reg. § 301.6109.
2
  The Internal Revenue Service’s Individual Taxpayer Identification Number Program Was Not Implemented in
Accordance with Internal Revenue Code Regulations (Reference Number 094505, dated September 1999).
3
  INS refers to the former U.S. Immigration and Naturalization Service. The DHS assumed the INS’ responsibilities
in 2003.
4
  Memorandum for Chief Operations Officer, re: Draft Internal Audit Report – Review of the Individual Taxpayer
Identification Number (ITIN) Program, Internal Audit Project # 960084 (May 27, 1999). This opinion was limited
to issues involving individuals under the Privacy Act of 1974, 5 U.S.C. § 552a (2000).
                                                                                                        Page 44
    The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                     Significant Challenges for Tax Administration

The DHS is responsible for citizenship, asylum, lawful permanent residency, employment
authorization, refugee status, intercountry adoptions, replacement immigration documents,
family and employment-related immigration, and foreign student authorization. Foreign
individuals who received ITINs and declared themselves as residing in the U.S. were apparently
not authorized by the DHS to reside in the U.S.
Forms 1040 were filed by resident aliens
The Internal Revenue Code provides that an alien individual shall be treated for tax purposes as a
resident of the U.S. with respect to any calendar year if such individual is a lawful permanent
resident of the U.S. at any time during that calendar year, meets the substantial presence test, or
makes a first-year election. 5 An individual is a nonresident alien if that individual is neither a
citizen of the U.S. nor a resident of the U.S.
An individual who does not reside in the U.S., but who must report income, is required to file a
U.S. Nonresident Alien Income Tax Return (Form 1040NR). A resident alien individual is
required to file a Form 1040. All of the individuals included in our review filed Forms 1040
identified by ITINs. By filing Forms 1040 with an ITIN, these individuals are declaring
themselves as resident aliens rather than nonresident aliens.
Resident aliens were employed
The ITIN is intended for tax purposes only and creates no inference regarding an alien
individual’s right to be legally employed in the U.S. (i.e., the ITIN does not authorize a foreign
individual to work in the U.S.). We estimate that $7.2 billion6 was claimed in wages and salaries
in Tax Year (TY) 2000 on Forms 1040 identified by an ITIN. In TY 2001, this amount increased
to $10.2 billion. The claimed wages and salaries indicated that these resident aliens were
employed.
Resident aliens provided SSNs to their employers to obtain employment
The ITIN is not valid for work purposes. So, employers are responsible for obtaining from new
hires their names and SSNs from their Social Security cards. Employers are also responsible for
preparing Forms W-2 and submitting them to the Social Security Administration (SSA). We
estimate that the 309,000 7 TY 2000 Forms 1040 that resident aliens filed on paper had
354,000 SSNs on the attached Forms W-2, indicating that the resident aliens provided to their
employers Social Security cards or SSNs for the purpose of obtaining employment.




5
  26 U.S.C § 7701 (2003). The “substantial presence” test is based on the number of days that an individual resided
in the U.S. The “first-year election” is an option for aliens meeting certain criteria to be treated as U.S. residents.
6
  The margin of error is +/- $474,000,000.
7
  The margin of error is +/- 12,385 tax returns.
                                                                                                              Page 45
    The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                     Significant Challenges for Tax Administration

Resident aliens would not have been able to obtain Social Security cards valid for
employment in the U.S.
The SSA issues three types of Social Security cards. The SSA issues Social Security cards to
U.S. citizens or individuals lawfully admitted to the U.S. with permanent work authorization
obtained from the DHS. The second type of card has the legend, “Not Valid for Employment.”
The SSA issues this type of card to individuals from other countries lawfully admitted to the U.S.
without work authorization from the DHS and who need a number becaus e of a Federal
Government law requiring an SSN to get a benefit or service. The third type of card bears the
legend, “Valid for Work only with [DHS] Authorization.” The SSA issues these cards to
individuals who are lawfully admitted to the U.S. on a temporary basis and with DHS
authorization to work. We concluded that the SSA should not issue a Social Security card (and
therefore an SSN) to an individual who is not authorized by the DHS for admission into the U.S.
The Treasury Regulation states that, “Any individual who is duly assigned a social security
number or who is entitled to a social security number will not be issued an IRS individual
taxpayer identification number.” Since the IRS assigns ITINs to resident aliens, we concluded
that these resident aliens were not entitled to an SSN as assigned by the SSA when they applied
for an ITIN. We also concluded that if resident aliens were authorized by the DHS to reside in
the U.S., and if that authorization permitted those individuals to work in the U.S., then those
individuals would be eligible for a Social Security card valid for working purposes, and the IRS
would not have assigned an ITIN.
Resident aliens obtained employment using false SSNs
The Social Security law states that, “whoever…with intent to deceive, falsely represents a
number to be the social security account number assigned by the Commissioner of Social
Security to him or to another person, when in fact such number is not the social security account
number assigned by the Commissioner of Social Security to him or to such other person…shall
be guilty of a felony….” We estimate that all of the 354,000 SSNs8 on Forms W-2 submitted by
resident aliens on the 309,000 TY 2000 paper filed Forms 1040 with an ITIN were assigned by
the SSA to an individual other that the filer (265,000) 9 or not assigned by the SSA (89,000).
Furthermore, a joint publication by the IRS and the SSA addresses the use of SSNs by
individuals with ITINs. The publication summarized an employer’s responsibilities for
withholding and reporting of employment taxes on wages paid to “illegal aliens.” Under the title
“Illegal Use of Social Security Numbers (SSN),” the publication states that, “Since ITINs are for
tax purposes only and are by no means a legal identification number for employment, individuals
are utilizing erroneous or stolen SSNs when applying for employment.”10
We concluded that the SSNs shown on the Forms W-2 had not been assigned to the resident
aliens and were therefore false. We further concluded that these fa lse SSNs were used to obtain

8
  The margin of error is +/- 21,348 SSNs.
9
  The margin of error is +/- 17,732 SSNs.
10
   SSA/IRS Reporter, A Newsletter for Employers, Summer 2003.
                                                                                          Page 46
   The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                    Significant Challenges for Tax Administration

employment. Additionally, we concluded that if the resident aliens were lawfully admitted to the
U.S. and were lawfully permitted to work in the U.S., the resident aliens would have provided to
their employers SSNs assigned to them by the SSA.
Audit Conclusion
The Forms 1040 included in our review were filed by resident aliens who were living in the U.S.
without apparent authorization by the DHS. Therefore, these individuals could not legally
acquire Social Security cards that were valid for obtaining employment. Since they could not
acquire the necessary Social Security cards, the resident aliens needed, and probably provided to
their employers, SSNs that had not been assigned to them by the SSA. It is our opinion that
individuals who are legally entitled to employment in the U.S. would also be legally entitled to
obtain Social Security cards valid for employment. Consequently, we concluded that the
Forms 1040 included in our review were filed by unauthorized resident aliens: foreign
individuals who were working in the U.S. without authorization from the DHS and without a
Social Security card valid for employment.




                                                                                          Page 47
  The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                   Significant Challenges for Tax Administration

                                                                        Appendix VIII


Memorandum: Accelerating Scheduled Increases in the Child Tax Credit and the
   Additional Child Tax Credit to Unauthorized Resident Aliens Should Be
                                Reconsidered




                                                                               Page 48
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                 Significant Challenges for Tax Administration




      2d, 2e




                                                                             Page 49
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                 Significant Challenges for Tax Administration




                                                                             Page 50
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                 Significant Challenges for Tax Administration




                                                                             Page 51
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                 Significant Challenges for Tax Administration




                                                                             Page 52
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                 Significant Challenges for Tax Administration




                                                                             Page 53
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                 Significant Challenges for Tax Administration




                                                                             Page 54
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                 Significant Challenges for Tax Administration




                                                                             Page 55
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                 Significant Challenges for Tax Administration




                                                                             Page 56
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                 Significant Challenges for Tax Administration




                                                                             Page 57
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                 Significant Challenges for Tax Administration

                                                                       Appendix IX


                 Management’s Response to Memorandum




                                                                             Page 58
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                 Significant Challenges for Tax Administration




                                                                             Page 59
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                 Significant Challenges for Tax Administration

                                                                       Appendix X


                Management’s Response to the Draft Report




                                                                             Page 60
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                 Significant Challenges for Tax Administration




                                                                             Page 61
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                 Significant Challenges for Tax Administration




      2d, 2e




                                                                             Page 62
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                 Significant Challenges for Tax Administration




                              2d, 2e
      2d, 2e

     2d, 2e




                                                                             Page 63
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                 Significant Challenges for Tax Administration




               2d, 2e
     2d, 2e




                           2d, 2e



      2d, 2e




                  2d, 2e

                                                   2d, 2e
      2d, 2e




                                                                             Page 64
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                 Significant Challenges for Tax Administration




     2d, 2e
      2d, 2e




               2d, 2e
      2d, 2e



      2d, 2e




                        2d, 2e


      2d, 2e




                                      2d, 2e




                                                                             Page 65
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                 Significant Challenges for Tax Administration




      2d, 2e




                                                                             Page 66
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                 Significant Challenges for Tax Administration




                                                                             Page 67
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                 Significant Challenges for Tax Administration




                                                                             Page 68
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                 Significant Challenges for Tax Administration




                                                    2d, 2e
      2d, 2e
      2d, 2e



                                           2d, 2e
      2d, 2e
     2d, 2e




                                                                             Page 69
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                 Significant Challenges for Tax Administration




                          2d, 2e



                                           2d, 2e
      2d, 2e
      2d, 2e




                                                                             Page 70
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                 Significant Challenges for Tax Administration




                                                                             Page 71
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                 Significant Challenges for Tax Administration




                                                                             Page 72
The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                 Significant Challenges for Tax Administration




                                                                             Page 73
